<html>
<title> - OVERSIGHT OF CEMETERIES AND OTHER FUNERAL SERVICES: WHO'S IN CHARGE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  

 
74-092

                                 2012__

2012

  OVERSIGHT OF CEMETERIES AND OTHER FUNERAL SERVICES: WHO'S IN CHARGE?

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2009

                               __________

                           Serial No. 111-59


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
?

                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA CHRISTENSEN, Virgin Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   DENNIS HASTERT, Illinois
FRANK PALLONE, New Jersey            ED WHITFIELD, Kentucky
BART GORDON, Tennessee               CHARLES W. ``CHIP'' PICKERING, 
BART STUPAK, Michigan                    Mississippi
GENE GREEN, Texas                    GEORGE RADANOVICH, California
CHARLES A. GONZALEZ, Texas           JOSEPH R. PITTS, Pennsylvania
ANTHONY D. WEINER, New York          MARY BONO MACK, California
JIM MATHESON, Utah                   LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE ROGERS, Michigan
JOHN BARROW, Georgia                 SUE WILKINS MYRICK, North Carolina
DORIS O. MATSUI, California          MICHAEL C. BURGESS, Texas
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Jesse Jackson, Jr., a Representative in Congress from the 
  State of Illinois, opening statement...........................     5
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     6
Hon. Steve Cohen, a Representative in Congress from the State of 
  Tennessee, opening statement...................................     7

                               Witnesses

Don E. Grayson, Sr., great-grandson of Dinah Washington, family 
  member of individuals buried at Burr Oak Cemetery..............     9
    Prepared statement...........................................    11
Dwight Robinson, family member of individuals buried at Burr Oak 
  Cemetery.......................................................    13
    Prepared statement...........................................    15
Roxie Williams, family member of individuals buried at Burr Oak 
  Cemetery.......................................................    16
    Prepared statement...........................................    18
Jesse L. Jackson, Sr., Founder and President, Rainbowpush 
  Coalition, Inc.................................................    22
    Prepared statement...........................................    24
Charles Harwood, Deputy Director, Bureau of Consumer Protection, 
  Federal Trade Commission.......................................    34
    Prepared statement...........................................    36
Daniel W. Hynes, Illinois State Comptroller, Office of the 
  Comptroller....................................................    44
    Prepared statement...........................................    47
Joshua Slocum, Executive Director, Funeral Consumer Alliance.....    50
    Prepared statement...........................................    53
Harvey Lapin, General Counsel, Illinois Cemetery and Funeral Home 
  Association....................................................    63
    Prepared statement...........................................    65
Spencer Leak, Jr., Leak and Sons Funeral Home....................    81
    Prepared statement...........................................    82

                           Submitted Material

Statement of International Cemetery, Cremation and Funeral 
  Association....................................................    93
Statement of National Funeral Directors Association..............   113
Statement of Thomas J. Dart, Cook County Sheriff.................   115

 
  OVERSIGHT OF CEMETERIES AND OTHER FUNERAL SERVICES: WHO'S IN CHARGE?

                              ----------                              


                         MONDAY, JULY 27, 2009

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:45 a.m., at 
the Everett M. Dirksen U.S. Courthouse, Room 2525, 219 South 
Dearborn Street, Chicago, Illinois, Hon. Bobby L. Rush 
[chairman of the subcommittee] Presiding.
    Present: Representatives Rush, Schakowsky, and Butterfield.
    Also Present: Representatives Davis, Cohen, Jackson of 
Illinois.
    Staff Present: Michelle Ash, Chief Counsel, Subcommittee; 
Anna Laitin, Professional Staff Member; Timothy Robinson, 
Counsel; Will Cusey, Special Assistant.
    Representative Rush's Office: Barbara Holt, District 
Director; Younus Suleman, Deputy Director; Thyatiria Towns, 
District Programs Coordinator; Kathryn English, Office 
Coordinator; Lalique Bearden, Receptionist and Systems 
Specialist; Zephranie Buetow, Intern; and Stephanie Gadlin, 
Press Secretary.
    Representative Schakowsky's Office: Ann Limjoco, Suburban 
Director.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Good morning. Can you hear me? Is the mics on? 
The mics are on?
    First of all, I'd like to welcome each and every one of you 
who are present to this Subcommittee hearing entitled, 
``Oversight of Cemeteries and Other Funeral Services: Who's in 
Charge?''
    Before we begin, I want to thank the chief judge of the 
U.S. District Court of the Northern District of Illinois, Judge 
James F. Holderman, for his hospitality in allowing us, the 
members of Congress, to use this hearing room, this courtroom 
for this particular hearing. And I'd also like to thank the 
distinguished gentleman from Israel, Judge Irana (phonetic), 
for being here with us today to observe this hearing, and his 
comment to me was that, in Israel, in his country, a hearing 
would not take place in a facility such as this, in that the 
distinguishing characteristics of the legislature and the 
judicial body never allows this type of interaction. And, so, 
he's amazed, and we certainly are grateful for him for taking 
the time out to observe this particular hearing.
    I'd like to welcome all of you to this Subcommittee Field 
Hearing on Commerce, Trade, and Consumer Protection. I invited 
a number of Congressional members, because I strongly suspect 
that what happened at the Burr Oak Cemetery in Alsip, Illinois 
is not an aberration. And, with that in mind, I'll yield myself 
five minutes for opening comments.
    If the horrible crimes that were committed at Burr Oak can 
happen in our district and our city and our state, and even in 
our nation, they can happen almost anywhere in our beloved 
country. At a time like this, we especially need to hear from 
the citizens we represent, and they need to hear from us, and 
that's why I thought it would be best that we would bring your 
federal government from Washington, D.C. home to Chicago, to 
directly hear from the citizens in this community whose lives 
have been shaken and altered by their horrifying revelations 
concerning Burr Oak Cemetery.
    I generally hope that the extraordinary and extremely 
disturbing and distressful revelation at Burr Oak can bring 
better attention to the problems in cemeteries all across this 
nation. The stories of mass upheavals of sacred grave plots and 
the desecration of remains at Burr Oak, Menorah Park, in Palm 
Beach, Florida, and at Tri-State Crematory in northern Georgia 
are just a few, and they should not vanish into thin air after 
dominating the news for a few days.
    Cemeteries and crematories should not be allowed to 
continue to abuse grieved customers through fraudulent, shoddy, 
and sloppy business practices. I've heard from hundreds of 
constituents, including Ms. Debra Charles. Her father was 
former heavyweight world boxing champion, Ezzard Charles, was 
buried at Burr Oak, along with her mother. Ms. Charles said 
that the hearing about Burr Oak--but, after hearing about Burr 
Oak, it re-opened old wounds of pain and loss, and that she 
felt she actually reburied her parents all over again. Another 
of my constituents, Mr. Tony Burless, a professional 
genealogist whose two great aunts were buried at Burr Oak, 
points out that Burr Oak was probably the first African 
American-owned cemetery in the Chicago area. According to Mr. 
Burless, in February of 1927, an armed posse of 75 whites 
interrupted a burial at Burr Oaks, arguing that African 
Americans could not be buried on the premises. Ultimately, the 
burial was permitted to proceed under the protection of police 
guards. This historic landmark, the remains of those buried 
there, and their living loved ones deserves much better care 
than they are now receiving.
    When cemetery operators fail to keep accurate records of 
where the deceased have been laid to rest, families and loved 
ones are prevented from connecting to their past. It hurts 
families and shatters communities. When cemetery operators 
weave in and out of trust agreements to escape accountability 
and regulatory requirements, the quality of the service and 
upkeep of cemetery facilities is prone to decline to 
unacceptable levels. The moral fiber that shape our civilized 
society is forever torn asunder. The simple fact is that many 
consumers are unfamiliar with the sales practices of cemetery 
owners and operators because they provide once-in-a-lifetime 
goods and services. Lacking experience with funeral and burial 
sectors, these consumers cannot reasonably be expected to 
respectfully negotiate prices, charges, and contractual terms 
applied to burial goods and to contracts and leases for land on 
graveyard property.
    I want to say to our witnesses, please listen closely to my 
following request. As eyewitnesses on the first panel tell us 
about their experiences with Burr Oak, as we talk about ways to 
better protect consumers of burial products and services, I 
would like for each one of you on the second panel to think and 
briefly answer the following question, when we open the floor 
to questions from members: Currently, there are no federal 
minimum standards for the operation of cemeteries. Do there 
need to be? If your answer is yes, then what are the best ways 
for us to work together to make this happen?
    With that said, I would ask for the Subcommittees' 
unanimous consent that Representative Danny Davis, who I 
understand is on his way, Representative Daniel Lipinski, who 
also is on his way, Representative Jesse L. Jackson, Jr. of the 
2nd Congressional District, and Congressman Steve Cohen of 
Tennessee's--what district?
    Mr. Cohen. Ninth.
    Mr. Rush [continuing]. Ninth Congressional District be 
allowed to make opening statements and participate in witness 
questioning during this hearing. And I would also like to note 
the presence of my good friend, Representative Jan Schakowsky, 
from the 9th District of Illinois, who serves as the Vice Chair 
of this Subcommittee, who is with us today. And I'm also 
grateful to the Honorable G.K. Butterfield, the representative 
from the 1st District of the great state of North Carolina, who 
is traveling here to spend time with us in our wonderful city.
    In addition, I would like to request a unanimous consent to 
any of the statements that are being submitted by families, 
loved ones, and friends of those buried at Burr Oak Cemetery in 
the record of today. This record shall remain open for 30 
calendar days from today for the submission of said statements.
    Ms. Schakowsky. No objection.
    Mr. Rush. Without objection, we have unanimous consent 
request and their entirety are approved. Before I ask Vice 
Chairman, the Honorable Jan Schakowsky, to present her hearing 
statement, permit me to say that I'm elated to see so many 
local, state, and elected officials who also came out to be 
with us this morning, and I want to thank you for coming. I 
look forward to hearing the testimony from all the stated 
witnesses who are here today. Time does not permit all who 
would like to testify to do so. Again, all witness statements 
should be submitted within the next 30 days.
    In closing, my heart and prayers, as well as my condolences 
and prayers from my own family, go out to those whose families 
have been directly affected by the horrible actions performed 
at Burr Oak. May God bless you and keep you through these 
painful and challenging times.
    I would like, now, to recognize the gentlelady from 
Chicago, the Vice Chairman of this Subcommittee, our own 
representative, Jan Schakowsky, for five minutes, for the 
purposes of opening statements.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you so much, Mr. Chairman, and thank 
you for conducting this hearing. This is clearly a situation 
that cries out for a remedy. Think of the crying, the tears 
over the deathbeds that were shed at Burr Oak Cemetery as loved 
ones were put to rest, and then imagine the tears that were 
shed in finding out about the atrocities that occurred there 
for the loved ones who were thought to be in their final 
resting place.
    I heard from constituents, as well, particularly the Herd 
family, Beatrice Herd and her mother, Rose Herd. They contacted 
our office to inform us that they had multiple family members 
who were buried there, and that they were trying to find where 
the bodies were located. They went to the cemetery when the 
news unfolded and found that the graves of a son, a daughter, 
and mother were covered by a dumpster. They hadn't been able to 
find out any information on the location of the children or the 
mother's body, and our constituents told us that they have 
children and sisters and brothers and aunts and uncles who are 
all buried there.
    Several years ago, Mrs. Herd went to Burr Oak's to order a 
headstone for her son and daughter and mother, and, while at 
the cemetery, a worker looked at the map and said, quote, 
Someone is buried on top of the others in that grave, unquote. 
And that day, Mrs. Herd went to see the manager, who said it 
wasn't true; that the bodies were in separate graves. And to 
make matters worse, after the headstones were ordered, they 
were placed in a location that was not where the bodies were 
originally buried; they were placed on a road in the cemetery. 
When Mrs. Herd inquired with the manager, the manager said, 
``Oh, you're mistaken. The bodies were buried by the road.'' 
Mrs. Herd states that she knows where her children were buried, 
and that they were moved. She said, ``I would never have buried 
my children where cars could roll over their grave.''
    I think the reason that the story has resonated with so 
many people is that there isn't a family who hasn't experienced 
a situation in a cemetery, at a funeral, visiting a grave. Is 
there anything that more deeply impacts families than this kind 
of situation, and can picture themselves at the burial site, 
remembering and putting flowers and tending a grave? And, as 
the Chairman has said, this is not a situation that's unique. 
The Committee has been provided with examples of other places 
around the country where similar atrocities have occurred, so 
it's not just a local or a state problem; it is a national 
issue.
    And, once again, Mr. Chairman, I thank you for bringing 
this to everyone's attention so that we can, together, seek the 
appropriate remedy in the law.
    I yield back.
    Mr. Rush. The Chairman thanks the gentlelady.
    The Chair now recognizes the gentleman from the 7th 
Congressional--2nd Congressional District, the Honorable Jesse 
Jackson, Jr., for five minutes, for the purposes of statements.

OPENING STATEMENT OF HON. JESSE JACKSON, JR., A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Jackson of Illinois. Mr. Chairman, I'd like to keep my 
remarks unusually brief, but let me first begin by thanking you 
and the Vice Chairman of the Subcommittee, Jan Schakowsky, for 
holding this hearing.
    Like you, we've heard from hundreds of our constituents who 
have raised concerns about the quality of care at Burr Oak in 
light of the recent revelations. The horror is unspeakable, 
it's unexplainable, and the events that occurred at Burr Oak 
Cemetery clearly have crossed the line of criminal behavior.
    Mr. Chairman, burial rituals are sacred in every major, and 
even minor, religion. The First Amendment guarantees freedom of 
religion. That freedom and fundamental right, through courts 
like this one, have been extended to include the womb. And from 
the unspeakable and unexplainable things that have occurred at 
Burr Oak Cemetery, the Committee should consider whether it 
should be extended to the tomb. A couple of ideas come to mind: 
An inventory of existing plots at cemeteries all across this 
country should be taken. And then, once those available plots 
are sold, cemeteries should be open for visitation and for 
maintenance only, and that does include the adequate 
maintenance or monitoring of trust funds, to ensure that 
cemeteries in perpetuity can have the quality of--and dignity 
associated with those who buy their final resting place.
    And, lastly, Mr. Chairman, I would argue that I hope that 
this Committee would consider, at the appropriate time, the 
idea that families who purchase plots should be deeded the land 
to the burial plot. That is, families who have plans that 
include monthly payments and insurance are entitled to a deed 
for the land that they have purchased for the purposes of their 
loved ones, recorded appropriately at the local level or 
whatever appropriate level, to ensure that their plots remain 
their land.
    And, so, Mr. Chairman, these are some of the ideas that we 
have heard from some of our constituents. I thank the Chairman 
for his time, and I want to offer, in a very special way, to 
not only my constituents but to all who find loved ones buried 
at Burr Oak, that this unspeakable tragedy, in part because of 
the lack of government oversight, has forced your families to 
look once again at very painful moments in your family's 
history. The time that it takes to overcome having lost a loved 
one and to bury a loved one takes time, and for this 
unfortunate event to occur forces us back into the pain body, 
into a memory that we had thought we had long since overcome. 
No words can truly express how members of this panel feel for 
your families at this hour. My sincerest prayers and hopes are 
that this will never happen to your family or any other family 
again.
    I thank you, Chair.
    Mr. Rush. Chair thanks the gentleman.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. G.K. Butterfield, for five minutes, for the purposes of 
opening statements.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you, Chairman Rush and Vice Chair 
Schakowsky, for inviting us to your hometown of Chicago, 
Illinois. It's great to be here.
    Also want to thank the many witnesses who are waiting in 
line to testify before us today. Thank you very much for 
coming, and thank you for your testimony.
    Mr. Chairman, as I've told you privately, I've wanted to 
come to Chicago this weekend to meet these families and hear 
these witnesses, but, also, wanted to have an opportunity to 
have dinner with my daughter last night, who lives here in 
Chicago. She moved to Chicago on the day that the First Family 
was leaving Chicago, on January 5th of this year. So it's good 
to be here in Chicago for----
    Mr. Rush. Is she registered to vote yet?
    Mr. Butterfield [continuing]. An invi--pardon?
    Mr. Rush. Did she register to vote yet? That's all right, 
I----
    Mr. Butterfield. I think she might be in Danny Davis's 
district, Mr. Chairman. But thank you for this gracious, 
gracious invitation.
    Mr. Chairman, after learning of the horrific acts that have 
taken place at Burr Oak Cemetery, I find this hearing to be one 
of the most important hearings that this Subcommittee has 
conducted in this session of Congress. As you know, Mr. 
Chairman, in my life before Congress, I was both a trial judge 
and a practicing attorney. As an attorney, I've represented 
several funeral homes and one cemetery. As a superior court 
judge of my state, I presided over many cases involving the 
occasional misconduct of the funeral industry. And, so, I have 
somewhat of a working knowledge of this subject matter.
    The Federal Trade Commission--and we have a representative 
here today from the FTC--has limited jurisdiction over funeral 
homes and the funeral industry. The Funeral Rule, which was 
created by the FTC, mandates that funeral homes must provide 
price lists, disclose state requirements regarding embalming, 
and provide information relating to the purchase of pre-need 
funeral services. The funeral homes that I have had the 
pleasure of working with take the federal rules seriously and 
run their businesses in a respectable and honorable manner. It 
is unfortunate that the Federal Rule does not--the Funeral 
Rule, excuse me, does not apply to cemeteries, and it does not 
apply to crematories and third-party sellers of funeral goods. 
In fact, the FTC has no jurisdiction over these industries, and 
that has been to the detriment of consumers across the country.
    The illegal exhumation of men and women, of fathers and 
mothers is perhaps the most egregious act someone can commit, 
and this happened potentially hundreds of times by five 
employees of Burr Oak Cemetery, located just outside of the 
city. The sadness and the anger and heartbreak felt by the 
families who have loved ones buried at this cemetery must be 
almost too much to bear. Even those lucky enough to be 
unaffected by these pitiful grave robbers are forever scarred, 
always thinking that it could have been--just as easily been 
their family member.
    In less than a decade ago, we were all horrified to learn 
that the Tri-State Crematory in the State of Georgia had been 
piling bodies like trash all over the facility, and sending 
cement to grieving families. That is awful. I pray that these 
are isolated incidents, and that these activities are not being 
repeated at any number of unregulated cemeteries and 
crematories across the country.
    Mr. Chairman, I believe a federal minimum standard by which 
all cemeteries, crematories, and, to a lesser extent, third-
party sellers of funeral goods is not only a good idea, but it 
is necessary. It is important that we give the FTC the tools it 
needs to expand the Funeral Rule so that loved ones who have 
passed away can be afforded the respect and care they deserve. 
I am informed that 25 percent of the funeral contracts that are 
issued, that are written in this country, arise from pre-need 
arrangements entered into between consumers and funeral homes. 
Consumers pay a large sum of money to have the satisfaction of 
having a pre-paid funeral contract. I am told that states vary 
in their treatment of these funds. Also, states vary on whether 
the payments are refundable to the consumer. We need a uniform 
regulation on this subject, as well.
    Mr. Chairman, thank you, and I thank the panelists for 
being here today. I know how painful it may be and must be for 
you, but, hopefully, this process can help you feel better, 
and, hopefully, we can prevent this type of activity from 
happening again.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from the 9th 
District of Memphis, Tennessee, Mr. Steve Cohen, for five 
minutes, for the purposes of opening statement.

  OPENING STATEMENT OF HON. STEVE COHEN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Cohen. Thank you, Mr. Chairman, and I appreciate, 
certainly, being here with the members of the Committee in this 
great City of Chicago. The City of Memphis is intimately 
related to Chicago through the Yellow or Central Railroad and 
Chicago's Southern Airlines, and, in my personal situation, 
even more so.
    My mother was--lived in Chicago, went to Bowen High School, 
met my father when he was a resident of Michael Reese Hospital, 
and this was the first major city I ever visited. When I was 
seven years old, we came in on the train. We took a cab out at 
Chicago Art Institute, where I saw those iconic lions where my 
mother had gone to school. And, on the way there, we saw--I saw 
a sign on the store, and it said ``Memphis Pork,'' and I felt 
at home, and I still feel at home in Chicago.
    My grandparents immigrated to this country from Lithuania. 
And, this past year, I had the opportunity to visit Lithuania. 
One of the issues there is that there was a large area that was 
a Jewish cemetery for centuries that has been covered by a 
building built by the communist regime in Lithuania. It's a 
major issue that those graves have been disturbed and that the 
communists built a structure over them. No knowledge of what 
happened to those graves.
    When I was there, I thought, ``Is it possible that some of 
my great-, great-, great-grandparents could have been there?'' 
And it bothered me. My mother's mother was somebody who we 
really didn't know. My mother was orphaned when she was in 
Chicago at age six. She never saw her mother again. I 
researched through the Internet and found out that she had 
passed in Miami in about 1976, and that she was buried in a 
pauper's grave in Miami. I know not where it is because there 
was no marker, but it would bother me to know, even though I 
never knew my grandmother, that her grave would be disturbed, 
and, even though it was a pauper's grave in Miami, that there--
and there's no marker, that something could happen to that 
spot.
    The desecration of bodies in our past is important and 
shouldn't be allowed to occur, so it's important that Chairman 
Rush has this Committee meeting, and what happened at Burr Oak 
could happen anywhere. I have a constituent, Ms. Rochelle 
Payne, who has ten relatives at Burr Oak. She is disturbed and 
was interviewed on the local television about this issue.
    The situation in Georgia is right outside the lines of the 
State of Tennessee, where I was a state senator, and that was a 
terrible injustice and crime that occurred there. At first 
blush, you'd think the cemetery industry should be regulated by 
state laws. And, at one time, cemeteries were local, and, 
still, there are lots of churches that bury on their 
properties, and it's a local situation. But, as we become more 
and more of a national country, and people have moved and 
commerce has changed, cemetery ownership is so often involved 
with somebody outside the state, and a for-profit industry. The 
cemeteries are bought and sold, and, because of the changes in 
the way that our society operates in commerce, it's important 
that we have regulation over the cemetery industry and not let 
somebody from out-of-state, or even in-state, have control over 
the remains of our loved ones and possibly disinter them or 
desecrate those graves. So it's an important national issue. I 
appreciate Chairman Rush calling it.
    I want the people of Chicago to know that people all over 
the country felt this was an injustice, and that remedy should 
be had, and that what happened here in Chicago has happened in 
other places, where we've had disturbances at cemeteries and 
the lack of maintenance at cemeteries, often African American 
in my city, and this needs to stop. So I thank the Chairman for 
the opportunity.
    I yield back the remainder of my time.
    Mr. Rush. And the Chair thanks the gentleman.
    Now, the Chair would like to invite the members of the 
first panel of witnesses to the witness table: Pastor Don 
Grayson, Mr. Dwight Robinson, Ms. Roxie Williams, and the 
Honorable Reverend Jesse Louis Jackson.
    It is the practice, the common practice of this 
Subcommittee that we swear in the witnesses, and I would ask 
the witnesses to please stand and raise your right hand. Will 
you please stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Rush. Please let the record reflect that all the 
witnesses have answered in the affirmative.
    We will begin with five minutes of opening statement, and 
I'm gonna ask the families if you will go first, and then 
Reverend Jackson will complete this panel's testimony.
    Mr. Grayson--Dr.--or, Pastor Grayson is the great-grandson 
of Dinah Washington, and he has other family members who are 
buried at the Burr Oak Cemetery.
    So, Pastor Grayson, we thank you for coming, and we welcome 
you, and we recognize you now for five minutes of opening 
statement.

  STATEMENT OF PASTOR DON E. GRAYSON, SR., GREAT-GRANDSON OF 
 DINAH WASHINGTON, FAMILY MEMBER OF INDIVIDUALS BURIED AT BURR 
                          OAK CEMETERY

    Pastor Grayson. Thank you, sir.
    To the Chairman and the distinguished Subcommittee panel, I 
am honored to be before you today, and thank you for your 
invitation. Although it is under the grim and tragic 
circumstances of the events surrounding the historical Burr Oak 
Cemetery, I am glad to be here.
    My name is Revered Don E. Grayson. I am the pastor of 
Greater Faith Tabernacle Church in Chicago, Illinois. I'm here 
today for three reasons: One, as a pastor, I've looked in the 
faces of those who have buried their loved ones, whether it was 
from a sudden death or a long, debilitating illness, and walked 
away from the graveside knowing that their loved--their family 
members are resting in peace now, only to discover that now 
there is a possibility that the resting place that many 
families struggled to pay for has been disturbed and allegedly 
resold for personal gain. I've counseled those who were 
emotionally distraught for the second time, because, to them, 
it is like reliving the loss all over again.
    I've prayed and asked God for the words, but what do you 
say to a mother who has lost her only son and has finally come 
to have peace with his death, that someone now has re-opened 
his grave and has taken his remains and just tossed them just 
like trash? Or a wife who buried her husband and two children 
in the same year, and is finally beginning to move forward? I 
tell them what the word of God says: That you don't fear one 
that can destroy the body, but fear one that can destroy the 
soul. But there are those who won't hear that, who don't have a 
pastor to counsel them. They're upset and they're angry because 
this should not have happened. But I, like many other pastors, 
have the awesome and difficult task of trying to heal those who 
have lost faith, and ask the question that so many have asked: 
Is nothing sacred, and why? And is anyone going to do anything 
about it?
    The second reason is as a professional. As a former law 
enforcement officer, I realize that the world we live in is 
filled with those who will take full advantage of the weak, as 
well as the unprotected, when there is no law in place to 
protect them, and when those that have rule are not governed 
and held in accountability for that which has been placed in 
their hands. We have laws, regulations, and annual, updated 
reports on everything from animals and the forest to the 
environment and toxic waste, but they're--but not our dearly 
departed and their final resting places.
    I realize the magnitude of the investigation that Cook 
County Sheriff Tom Dart and the law, other law enforcement 
agencies involved have, and he has handled it with 
professionalism, care, and concern. I know that this type of 
investigation must be handled with time and precision, and that 
the public must be patient so that all of the facts will be in, 
and that those responsible are brought to justice, and the 
victims, living and deceased, can have peace and healing.
    And, thirdly, my own personal experience; my own family who 
has patronized the Burr Oak Cemetery for over 60 years. My 
great-grandmother, Dinah Washington; my great-grandfather, 
Reverend Dr. S.A. Grayson; my great-grandmother on my mother's 
side, Ms. Idella Liddell; and great-grandparents, Dan and Ida 
Sutton; and countless of others of my family, more than I could 
even name, who have made their final, physical resting place at 
the Burr Oak Cemetery. I must be honest in telling you that I 
am emotionally affected, and, to some of the members of my 
family, this has been devastating and overwhelming, because 
there are family members who have headstones and can't possibly 
be located, but there are others with no headstone and, now, 
almost impossible to locate.
    I implore you as a governing body, as the ones who have 
been made stewards over this great country, that you would look 
into this matter as if your own family members were involved, 
as if your parents and ancestry had been disturbed. Put 
yourself in the place of these families who now have to relive 
the burden, the pain, the sadness, and the grief of death. I 
ask that you would regulate laws to govern the cemeteries, and 
then hold them accountable. I ask that you have annual 
inspections of all cemeteries and their records, and that you 
would force them to update their records and modernize them 
from the first person laid to rest to the last, and that the--
even the private facilities have the similar, if not the same, 
standards.
    Mr. Chairman and panel, I thank you for this time.
    [The statement of Pastor Don E. Grayson, Sr. follows:]
    <GRAPHIC><TIFF>T4092A.001
    
    <GRAPHIC><TIF1>T4092A.002
    
    Mr. Rush. Thank you very much, Pastor Grayson.
    Our next witness is Mr. Dwight Robinson, who has family 
members buried at Burr Oak.
    Mr. Robinson, we welcome you to this Subcommittee, and 
you're recognized now for five minutes, for opening statements.

  STATEMENT OF DWIGHT ROBINSON, FAMILY MEMBER OF INDIVIDUALS 
                  BURIED AT BURR OAK CEMETERY

    Mr. Robinson. Thank you, Mr. Chairman.
    Congressman Rush and other distinguished members of the 
Committee, thank you for this opportunity to speak to you today 
regarding the ongoing crisis at Burr Oak Cemetery.
    My name is Dwight Robinson. I, like thousands of others who 
have loved ones buried at Burr Oak, were in shock to hear that 
hundreds and possibly thousands of graves had been desecrated. 
Both my parents are buried at Burr Oak. My father, Leonard 
Robinson, in 1983, and my mother, Vivian Robinson, in 1989. At 
the time of their burials, it was my belief, and that of my 
sister, that my parents would rest in peace. Unfortunately, 
this tragedy has caused both of us to have to relive the death 
experience all over again. This incident has resurrected what 
should have been comforting memories; have now turned into 
disbelief, confusion, uncertainty, and unnecessary anxiety. 
Although I was able to go to Burr Oak prior to the Cook County 
Sheriff and the FBI temporarily closing it, and although things 
appear fine on the surface, there is still that element of 
doubt as to whether what looks fine on the outside is still OK 
on the inside of my parents' grave. We may never know if the 
grave sites were actually disturbed. Even if we knew for 
certainty that my parents' graves were never touched and remain 
intact, there is still one unsettling emotion; that there are 
other families that are also re-grieving the past; that there 
are persons that have shown a callous disregard for the 
sanctity of the sacred ground where many are laid to rest.
    There are so many questions that remain unanswered, not 
withstanding why anyone would do something like this to the 
families and loved ones of others. If nothing else, one would 
believe that something inside of these four individuals would 
have been triggered. I have to believe that each of them at 
least has one family member buried somewhere, and that they 
would never have wanted something like this to happen to their 
loved ones. One question that remains with me is, what will 
happen to my parents' remains, as well as those of others, 
should Burr Oak be permanently closed? Will we have to transfer 
our parents to another cemetery? If so, how will this be 
handled? Who would be responsible for payment? Until these and 
other questions are answered, none of us who remain will have 
full peace.
    We all know that there needs to be better regulation of 
cemeteries. In fact, most of us have known this for years. 
However, those that we have put in place to provide such 
regulations are too entrenched in allowing lobbyists to dictate 
policies for the public. This should be a painful lesson to 
everyone to acknowledge; that the acts of violence and 
indifference to the deceased at Burr Oak were also an act of 
violence and indifference to those families that are still 
alive.
    Thank you, Mr. Chairman, for your time, and the members of 
this Committee, for your time and efforts towards this ongoing 
crisis.
    [The statement of Mr. Dwight Robinson follows:]
    <GRAPHIC><TIF2>T4092A.003
    
    Mr. Rush. The Chair thanks the gentleman, Mr. Robinson.
    And, now, the Chair recognizes Ms. Roxie Williams, who has 
family members that are also buried at the Burr Oak Cemetery.
    And, Ms. Williams, we want to welcome you to the 
Subcommittee, and you're recognized now for five minutes, for 
opening statements.

   STATEMENT OF ROXIE WILLIAMS, FAMILY MEMBER OF INDIVIDUALS 
                  BURIED AT BURR OAK CEMETERY

    Ms. Williams. I want to thank you, Honorable Congressman 
Rush, and to the Subcommittee that has taken the time out to 
hear from the families.
    My name's Roxie Williams. And there may be some families 
here that are not close to the young people in their family. 
The generations don't know the contributions that the older 
people in their family have made. That would not be my family. 
Maybe there are some men who did not look after the development 
and the education of their children, did not contribute to 
their communities. That, too, would not be my father. Matthew 
Williams served this country. Matthew Williams was a king in 
his community. Matthew Williams served his family. On October 
22nd, 1978, Matthew Williams was laid to rest at Burr Oaks. At 
11 years old, 11 days after my birthday, I had to deal with the 
tragedy and hold up a family; a little lion cub trying to roar 
for a mother who had suffered a mental breakdown after losing 
the support of her husband; trying to tell children what to do 
next without having that father there to support the family.
    We went through some traumatic times burying my father. As 
you know, in our communities, even middle class, it came as a 
financial burden to my mother. My mother worked ER at Cook 
County, and worked a second job to make sure that things were 
taken care of. My family rallied around my mother to bring her 
safely back to a mental state. My grandmother and I picked 
clothes, selected caskets. We paid a mint to bury my father as 
the king that he was.
    We have a thing that our family does; we don't forget our 
loved ones. Every year, I would go, on his birthday, and put 
flowers at the grave site. We had a big to-do when my father 
died, because he had three different places we could have 
buried him; one, because he was a veteran; two, because he's 
the only child to his mother, and they wanted to be buried 
together; and, three, because the family had prepaid for plots. 
We decided to bury him with his mother, and she had decided 
Burr Oaks would be that cemetery that they would lay together 
at rest in peace. My mother selflessly laid my father next to 
his mother. She had not passed at the time. She was the only 
grandmother that pulled me through. For two years, I didn't 
speak because it was such a traumatic thing for me.
    My mother offered to buy a custom-made headstone for my 
grandmother and my father so that I would have the memories. 
And my last words spoken to him were the last words put on that 
headstone. In 1993, after finishing high school and college, I 
was pregnant and engaged, and I wanted to show my fiance who my 
dad was. It's very hard coming up and you don't have a man to 
present a new man in your life to. We went to the grave site 
only to find that my father's headstone was not there. My 
grandmother, who had passed two years after him, her headstone 
was there. When I went to the office, they told me perhaps I 
had the wrong information.
    My mother struggled to put a customized headstone for me 
and my brother and my kids' kids to know where our families 
lay. We paid through our nose. My mother sacrificed food. She 
sacrificed. The community came together to make sure a man who 
had served that community was buried with dignity. And when I 
got there, all he could tell me is that, ``No.'' I had to go 
home to my mother's home, dig through death certificates, find 
a little blue card to tell them where my father was buried. And 
when I came back, the man who told me he was not there was on 
vacation. The woman in the office had a--someone take me out to 
that particular site. All that was there was grass and my 
grandmother's headstone next to it. I knew then something was 
wrong.
    Being--having a baby, not having the finances to fight a 
cemetery, to say that I know darn well where we laid my father, 
and to have to come as an adult and fight with them about a 
situation, that I came year after year--there is no way I would 
forget the ground that my father lay on. Then to have them say, 
``Perhaps we have lost the records.'' How do you find justice 
for me, when you've lost the records of my only father? If I 
had not been birthed and he had not signed that birth 
certificate, and I needed DNA to prove who I was today, I would 
be in trouble. How do I tell my son, who is now 16, about a 
grandfather, and I cannot even take him to his last resting 
place and know for sure that's where he was?
    Can something hurt 31 years later? Absolutely. Can you take 
this thing lightly? Absolutely not. Because the pain and the 
wounds are still re-opened. Maybe my father has never meant a 
thing to any of you. Maybe my grandmother being buried at Burr 
Oaks may not be significant to anyone in this room, but they 
meant the world. They were the cornerstones of us being able to 
come through and be productive and positive human beings in 
this society right now. We owe them that tribute. And, today, I 
champion my family again on a tragedy of the same death that we 
had 31 years ago.
    Will I let it rest? No, because you have not let my father 
rest. You have not let my grandmother rest. And as long as my 
ancestors don't rest, this girl is not going to rest, until 
there's something done about the criminal act. You have raped 
us. You have robbed us. And you have nothing to say, but, 
``Sorry we lost your loved ones' remains?'' It is not 
appropriate. It is not something that I can take lying down, 
and, as long as there's breath in me, I will support whatever 
you all decide to do so that no other family, no other 
grandchild, no other great-grandchild has to deal with what I'm 
dealing with today.
    And I hope, in my whole heart, if I do nothing else great 
in my life, I hope that I make a difference for Matthew 
Williams and Pearl Billips, who made a difference for me. And I 
thank you today for allowing me that.
    Mr. Rush. The Chair certainly thanks Ms. Williams.
    [The statement of Ms. Roxie Williams follows:]
    <GRAPHIC><TIF3>T4092A.004
    
    <GRAPHIC><TIF4>T4092A.005
    
    <GRAPHIC><TIF5>T4092A.006
    
    <GRAPHIC><TIF6>T4092A.007
    
    Mr. Rush. And, now, it is my privilege and my honor to 
recognize one who needs no introduction, in that he is very 
familiar in all the wards for justice across this nation and 
across this world. He is someone who I have an endearing 
relationship with, a loving relationship. For most of my life, 
he's been a filler in my own life, and he's been a helpful 
friend in my times of need. So it is my distinct honor to 
recognize, for five minutes, for the purposes of opening 
statement, the honorable, the reverend, the leader, Reverend 
Jesse Louis Jackson, of the Operation PUSH.

   STATEMENT OF REVEREND JESSE L. JACKSON, SR., FOUNDER AND 
             PRESIDENT, RAINBOWPUSH COALITION, INC.

    Reverend Jackson. Thank you, Chairman Rush, Committee 
members----
    Mr. Rush. Will you turn your mic on.
    Reverend Jackson. Thank you, Chairman Rush----
    Mr. Rush. Thanks.
    Reverend Jackson [continuing]. And to Committee Members 
Jackson and Butterfield, Schakowsky, and Cohen.
    Let me make one alteration here. Mr. Cohen said this was 
the first major city he visited. It is the only one he visited; 
this is Chicago.
    This testimony is presented to this Congressional hearing 
panel in response to the cemetery crisis at Burr Oak Cemetery 
in Chicago, in Alsip, Illinois, which we believe may be 
symptomatic of a national problem arising from the inadequate 
regulation of cemeteries, casket companies, and grave diggers.
    The Burr Oak crisis arose as a result of the State of 
Illinois' failure to regulate the cemeteries and crematories 
within its geographic boundaries. In my investigation, I have 
discovered only one cemetery in the State of Illinois that 
acknowledged that it has sold all of its available burial 
space, and, therefore, cannot and will not take any additional 
bodies. This is in contrast to Burr Oak Cemetery, which, with 
the acquisition of additional land, the owners and operators 
have continued to accept burial fees and purchases of pre-need 
plots for the past several years. The Burr Oak paid-for plot 
scandal investigation uncovered, so far, more than 300 bodies 
or remains had been moved. Caskets and vaults have been dug up 
and arbitrarily discarded to facilitate the resale of graves.
    Burr Oak is owned by a holding company known as Perpetua, 
which also owns and operates two other cemeteries; Cedar Park 
in Chicago and another cemetery in St. Louis, Missouri. We're 
not certain that the practices at Burr Oak and Cedar Park are 
identical, but we do know that both cemeteries are under common 
management. The owners are responsible, and the workers jailed 
now could be the fall guys. We need to know.
    We realize that the Burr Oak scandal is symptomatic of a 
national problem that may arise if we continue through the 
practice of not regulating cemeteries. We made the following 
observations as a result of our research arising out of the 
Burr Oak investigation:
    The desecration of the moderate remains of Emmett Till's 
casket further the pain and the humiliation, and the likes of 
our dear sister, Dinah Washington, and Ezzard Charles and so 
many more, one that's been a pattern of desecration of African 
American cemeteries and burial grounds as evidenced by the 
African burial ground located on Wall Street in New York City.
    Two, there has been a major impact on cemetery expansion in 
urban areas as a result of the use of eminent domain laws to 
acquire cemetery property for use in expanding highways.
    Three, the failure of state legislatures to appropriate 
funds to ensure proper and adequate burials of indigent 
citizens. There's an attempt on this session of budget long--to 
no longer pay for the burial and funerals of public aid 
recipients. We have a struggle with that even as we talk today.
    Cemetery records are often poorly maintained and managed.
    Presently, all states, including Illinois, regulate funeral 
directors and funeral home owners and embalmers, but do not 
regulate cemeteries or its owners.
    There's no common repository for death and burial records 
that would permit online searches. To this date, there are 6600 
cemeteries in the state, with 900 on regulation. Others have 
private or religious domain.
    Members and directors of RainbowPUSH are therefore calling 
on this panel to:
    One, conduct a review of all state laws and regulate 
cemeteries to determine similarities and differences in 
regulatory status.
    Two, promulgate national cemetery regulation that results 
in a national funeral database that includes data on the 
funeral, the cemetery arrangements by owners, date, and name of 
the deceased.
    Three, initiate uniform cemetery regulation that designates 
one agency with responsibility for licensing, regulating, and 
maintaining cemeteries.
    Four, enact federal legislation that creates a national 
uniform death registry that includes the information regarding 
the funeral and burial services and burial site of the deceased 
on the death certificate that is readable and accessible 
online.
    Five, enact federal legislation that requires every state 
to consolidate regulatory oversight in one state agency.
    And, six, enact federal legislation that appropriates 
sufficient funds for the funeral service and burials of 
indigent persons.
    The only modest consolation for all of this painful crisis 
is that Burr Oak is the resting place, now disturbed bones, of 
the deceased. The Lord alone has the souls in a vault that 
cannot be disturbed by thieves. We constantly seek to offer 
consolation to the bereaved families. Thank you.
    [The statement of Reverend Jesse L. Jackson follows:]
    <GRAPHIC><TIF7>T4092A.008
    
    <GRAPHIC><TIF8>T4092A.009
    
    Mr. Rush. The Chair thanks Reverend Jackson.
    And the Chair now recognizes himself for five minutes--or, 
for two minutes, for questioning, as we have an amount of 
time--a limited amount of time. And the Chair wants to ask each 
and every one of the witnesses. I can't forget the words of 
your--Pastor Grayson, your grandmother. Is that your 
grandmother or your great----
    Pastor Grayson. Yes.
    Mr. Rush [continuing]. Grandmother? Grandmother. The Psalm 
that she said, ``What a difference a day makes.''
    Pastor Grayson. Yes, she did.
    Mr. Rush. And I just want to assure you and all the 
panelists and all of the witnesses and all the victims today 
that this day will make a difference. We're not here just for 
the press. We're not here just for some type of show. We're 
here to do the people's work, and this Committee will do the 
people's work. Out of this hearing and additional hearings, we 
will bring forth legislation, federal legislation, to set 
minimum standards for the operation of cemeteries all across 
this nation. What happened at Burr Oak, as you had said, 
indicated, is just not symptomatic of just one place. It's 
not--this is something that is occurring across this nation, 
maybe not to the extent of Burr Oak, but it's certainly 
happening all across this nation.
    Pastor Grayson. That's right.
    Mr. Rush. And we intend to look--get to the bottom of it 
and provide for relief to the families.
    Let me just ask you--and I'll ask all the witnesses to 
chime in on this--do you see a federal role? And do you support 
a federal role in providing for minimum standards for the 
operation of cemeteries across this nation? And I'll say 
crematories across the nation.
    Pastor Grayson. Mr. Chairman, yes, I do. I do see a 
significant federal role regulating cemeteries and crematories. 
I think it would be advantageous on the part--for the 
community. Situations such as what Ms. Williams has dealt with, 
situations as to what some of the members of the congregation 
and some similar others and other pastors have to deal with in 
reference to trying to relocate, I think it would be a great 
idea to do that. And I would support it.
    Mr. Rush. Mr. Robinson.
    Mr. Robinson. Thank you, Chairman Rush. I don't think 
there's anyone that would not support federal legislation 
across this country to regulate cemeteries and crematories. I 
don't see, personally, and being a resident of the City of 
Chicago and the State of Illinois, I don't see the ability of 
the State of Illinois to be able to regulate these entities. It 
is my personal belief that the best that the State of Illinois 
can do is to license these entities. So, without the ability--
in my own personal belief, once again--of the State of Illinois 
being able to regulate these entities, I think the only way 
we're going to get across-the-board, sweeping regulations would 
be through this Committee and through the federal government. 
Thank you.
    Mr. Rush. Thank you.
    Ms. Williams.
    Ms. Williams. It's my opinion that we should regulate the 
cemeteries and crematories, because they have shown us that 
they are not able to handle the enormity of their services 
without some support, and I think it would be helpful to any 
individual that would have to interface with this particular 
industry; that they would have some assurances and ensurances 
that things would be handled properly. And they would have 
something tangible at the end of the business transaction that 
they could also prove, you know, that there was a business 
interaction with the cemeteries.
    So I think that regulation, at this point, is warranted.
    Mr. Rush. Reverend Jackson.
    Reverend Jackson. Mr. Chairman, emotionally, when a loved 
one dies, people often call their pastor and funeral director. 
They're connected emotionally to their church, so often, and 
the funeral director, and they are very publicly accountable. 
Many of us distinguish between the funeral home and the 
cemetery, and there is an absolute distinction between the very 
regulated funeral home--the embalmers are licensed and trained, 
and the health department and other agencies are involved--and 
the cemetery. When that gate closes, there's just left family 
and funeral home. It's that gap that leaves them to their own 
devices that we saw in this situation.
    Also, people often are forced to pay the cemetery to be 
allowed to be buried, but are not forced the same way to have 
to pay their funeral home. They may have to rape and scrape 
money to pay the cemetery for burial right now, and get a late 
payment, say, from Medicaid or some other agency, on their 
loved one to run the funeral home and small business into a 
great deficit. There's one funeral home that's owed a million 
dollars in late payments, but has to handle and bury the poor.
    The other part, of course, is that, without some standard 
of human dignity regulation, the--within 48 hours, the doctor 
must sign the death certificate. In 72 hours, the funeral home 
must sign it. But, then, the cemetery only--it doesn't. It 
drops. One should be able to go online and see ``X'' person 
died on ``X'' day, death certificate signed by the doctor, 
signed by the funeral director, cemetery they're buried at, at 
such-and-such a place. That should be one line, but, right now, 
that line does not exist.
    Mr. Rush. OK. The Chair now recognizes the Vice Chairman of 
the Subcommittee, Ms. Schakowsky, for two minutes for 
statement--for questioning.
    Ms. Schakowsky. I just want to, really, to express my 
gratitude to this panel. I think everyone presented a very 
important and helpful perspective, and I wanted to particularly 
single out Ms. Williams for talking about, in the most eloquent 
way I can imagine, the anguish of families, and how generations 
can be affected by this, and I appreciate that.
    I wanted to just comment on something that Reverend Jackson 
said. There are lots of communities that are affected. We were 
given examples of families with relatives at a Jewish cemetery 
in Palm Beach, and another Florida cemetery. They were linked 
by having--by being part of a national chain of cemeteries--of 
for-profit cemeteries, which I think really does underscore, 
too, the need for a national resolution, as well as--certainly, 
would not preclude state and local regulation, as well.
    But, again, I am greatly appreciative, and I think the 
decision to have families first was an important one, Mr. 
Chairman. Thank you.
    Reverend Jackson. Mr. Chairman, one thing I forgot was, 
often these huge, conglomerate cemetery homes are now buying up 
large spots of land, and have the funeral services on the 
property, and use it to undermine funeral home relationship. 
So, the bigger they get, the more they push the family away. So 
we have these services on this unregulated, for-profit 
territory, which makes it even more difficult to manage.
    Mr. Rush. Thank you.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Butterfield, for two minutes, for the purposes of asking 
questions.
    Mr. Butterfield. Thank you, Mr. Chairman.
    I, too, would like to thank the four of you for your 
testimony, and I agree with Ms. Schakowsky that, Ms. Williams, 
your testimony was very helpful. I've sat in courtrooms and 
Congressional rooms all of my adult life, and I've never heard 
testimony more powerful or relevant. I understood every word 
that you said. Thank you very much for your testimony.
    Mr. Robinson, let me direct my questioning to you, if I 
can, sir. Apparently, you have multiple family members who are 
interred at this particular cemetery; is that right?
    Mr. Robinson. Just my mother and my father.
    Mr. Butterfield. OK. Does the family own an assortment or 
an array of grave spaces, or do you have other grave spaces at 
your disposal at this moment.
    Mr. Robinson. No, sir. The plots were purchased at the time 
of my parents' death. There are no other lots that were 
purchased at Burr Oak. I don't have a lot out there, and 
neither does my sister, at this time.
    Mr. Butterfield. Do you recall how you purchased those lots 
when--at need? What, was it through the funeral home, or did 
you have to go directly to the cemetery.
    Mr. Robinson. They were purchased through the funeral home 
with my parents--the funeral home that we chose, my mother--my 
father preceded my mother in death, and my mother chose the 
funeral home where she wanted my father to be buried. And then, 
once my mother passed six years later, we--my sister and I 
decided to use the same funeral home for my mother, and to bury 
my mother alongside of my father.
    Mr. Butterfield. What is the practice now, if you know, in 
the Chicago area, regarding cemetery sales, plot sales? Are 
they advertised in the media, or is it generally done 
exclusively through the funeral home.
    Mr. Robinson. I really don't know the answer to that.
    Mr. Butterfield. OK. Reverend Grayson, do you have any 
information on that? Yes.
    Pastor Grayson. What is the----
    Mr. Butterfield. What is the practice in the Chicago area?
    Pastor Grayson. Well, thank you, sir.
    From my understanding, as a pastor, whenever someone dies, 
they generally contact the funeral home or a pastor. The 
pastor, in turn, would suggest a funeral home in which they 
might be affiliated with or have association with, and they 
would send them, actually, to that funeral home.
    As Pastor--as Reverend Jackson has said, pastors and 
funeral homes sometimes work cohesively together.
    Mr. Butterfield. That's pretty clear. That's the same thing 
in my hometown, but I'm trying to get from the funeral home to 
the cemetery. Can you illuminate on that for me?
    Pastor Grayson. Well, from what I understand, as dealing 
with it, the cemetery would--or, rather, the funeral home would 
ask the family what cemetery would they like to be buried in? 
Would they likely have a family crypt or something like that. 
In that turn, they--the funeral home--I've dealt with Leak and 
Sons. They would take us out to the cemetery and have the 
family to deal with the cemetery one on one. The funeral home, 
to my knowledge, has no dealings with the cemetery as far as 
pricing or that type of thing.
    Mr. Butterfield. And, so, the funeral director would 
facilitate the arrangement between the cemetery and the family.
    Pastor Grayson. They would basically just ask----
    Mr. Butterfield. They basically stay out of the 
transaction.
    Pastor Grayson. That's correct.
    Mr. Butterfield. OK. That's generally the practice of 
Chicago; is that right?
    Pastor Grayson. Yes.
    Mr. Butterfield. Thank you, Mr. Chairman. And thank you for 
your time. I'm gonna yield back.
    Mr. Rush. The Chair now recognizes the gentleman from the 
2nd District of Illinois, Mr. Jackson, Jr., for two minutes, 
for the purposes of questions.
    Mr. Jackson of Illinois. Mr. Chairman, I don't plan to use 
up all my time, but I certainly want to begin by thanking Ms. 
Williams for the very emotional testimony, and for the way in 
which it was perceived by this Committee.
    I'd like to direct my questions, in furtherance of Mr. 
Butterfield, to Mr. Robinson and Mr. Grayson. Are you aware of 
whether or not, when you purchased the plots at the cemetery, 
whether or not that land was deeded to your family, 
specifically, as the final resting place of your loved one?
    Mr. Robinson. Congressman Jackson, in my case, no, it was 
not. All we received from the cemetery were the location cards 
as to where my parents were buried. Fortunately, my sister and 
I maintained all of our records of our parents, and I--when I 
went to visit Burr Oak and visit my family's grave, we had the 
burial cards and the locations. And even though there was some 
damage around the location, it did not appear, to me, visually, 
that there had been any serious disturbance of my parents' 
graves.
    But we were not given any deeds or anything; only the lot--
the cards. As Ms. Williams said, she was given a pink card, and 
I can only assume that men who are buried are given blue cards, 
and women who are buried are given pink cards. And, so, my 
father has a blue card, and my mother has a pink card, and 
that's what we used for a location.
    Mr. Jackson of Illinois. Mr. Grayson.
    Pastor Grayson. Thank you, Congressman. As far as I can 
understand,--I don't really know too much of that, as far as a 
deed is concerned. I know, in some members of my family, they 
had pre-arrangements as to their purchasing the plots prior to 
their death, and I think they received some type of paperwork 
in reference to that. And whenever someone dies, we take that 
particular paperwork to the cemetery, and they retrieve that 
particular plot.
    Mr. Jackson of Illinois. I guess what I'm getting at, 
Reverend Grayson, is that, a bereaving family, when they 
purchase a cemetery plot, operates under the assumption that 
this is the final resting place----
    Pastor Grayson. That's correct.
    Mr. Jackson of Illinois [continuing]. Of their loved one, 
and that the purchase of that plot is, essentially, the final 
resting place of that loved one.
    Pastor Grayson. That's correct.
    Mr. Jackson of Illinois. That's their land, essentially, 
for the purposes of that plot in the context of the memorial 
garden. Is that your understanding?
    Pastor Grayson. To my understanding, when you purchase that 
plot, it's your plot. When you purchase that particular--I have 
family members who have made pre-arrangements and have 
purchased several plots. The whole Grayson family, next to my 
grandmother, Dinah Washington, all of them are right in 
together, along with several other relatives. Those plots were 
purchased, so that land, assuming they cannot be touched, is 
not supposed to be touched.
    Mr. Jackson of Illinois. There's no expectation that 
someone who's buried in a crypt, that somehow, once that crypt 
space is purchased, buried above the ground, that somehow, 
underneath that space, you might find additional graves to be 
sold. You have----
    Pastor Grayson. I haven't----
    Mr. Jackson of Illinois. You own that land that you bury 
your loved ones on.
    Pastor Grayson. That is the assumption; yes.
    Mr. Jackson of Illinois. That's the assumption. And there 
are documents within the memorial garden, we are arguing, 
should be maintained to show that that is essentially your 
family's----
    Pastor Grayson. Memorial Gardens, or Burr Oak.
    Mr. Jackson of Illinois. A memorial garden.
    Pastor Grayson. OK.
    Mr. Jackson of Illinois. I'm using the term ``memorial 
garden,'' not specifically, but Burr Oak, specifically, but the 
idea of a memorial park.
    Pastor Grayson. Absolutely. Yes.
    Mr. Jackson of Illinois. I think my final question, Mr. 
Chairman, to pick up on something that--Representative 
Butterfield raised the question. The idea of maintaining these 
plots, is that something that the families maintain, or is the 
expectation, when you purchased the plot, that, in perpetuity--
forever--the grass will be cut, the headstones will be 
maintained, that there will be a certain amount of dignity 
associated with the expectation of an undisturbed tomb.
    Pastor Grayson. Well, to my knowledge, Mr. Congressman, 
when you purchase that plot or that section where your final 
resting place is for your family members, it is the assumption, 
again, of the family that the cemetery is to maintain the 
actual grave of land--property, because that's basically what 
they're getting paid for out of the money that they've received 
from these cemetery plots. I'm--I don't think I have any 
assumption or that I'm really thinking that you're supposed to 
come out there and cut the grass.
    Mr. Jackson of Illinois. Yes. Let me make one final 
comment, Mr. Chairman. I know my time has expired, but it's 
something else that Representative Butterfield said; that when 
these payment plans are made, are they made to the funeral 
homes, or are the payment plans made to the cemeteries 
themselves? Or does the payment plan include the burial plot as 
well as the funeral arrangements themselves.
    Pastor Grayson. I have no knowledge of that, sir.
    Mr. Jackson of Illinois. Thank you.
    Mr. Rush. All right. The Chair now recognizes Mr. Cohen for 
two minutes.
    Mr. Cohen. Thank you, Mr. Chairman.
    I just join Ms. Schakowsky and others who mentioned Ms. 
Williams' testimony. She brought it to a personal level, and, 
in my opening statement, I talked about some theoretical 
things, about relatives I didn't know, and that disturbed me. 
It bothered me, but, in the personal level, it's much more 
germane. And the fact is, 200 years ago, when we had our 
Constitution and we had a Fifth Amendment, and we talked about 
states having prerogatives over certain issues, cemeteries 
weren't owned by companies outside of state border; they were 
generally churches or synagogues or other groups that had the 
cemeteries and kept them at home, and they were subject to the 
goodwill of their neighbors. That no longer exists. So this is 
a time when we need to have federal legislation on cemeteries.
    The name of this cemetery company, Perpetua, is so ironic, 
because there was nothing perpetual in what they did; it was 
fraudulent, it was a breach of trust, and there should be 
penalties and some type of appropriate remedy for the 
relatives.
    I yield back the remainder of my time.
    Mr. Rush. Thank you.
    Reverend Jackson. Mr. Congressman.
    Mr. Rush. Reverend.
    Reverend Jackson. Another piece that we--as we began to dig 
the stuff up, was the--there's a perpetual fund. The cemetery 
has that fund; use it like a pension fund. And about 12 years 
or so ago at Burr Oak, they had to change companies because of 
the violations of the perpetual fund.
    Also, distinction between stacking bodies is somehow being 
permitted, even at, say, Lincoln, down in Springfield; a 
husband and wife may--they should be buried, too, in that way. 
The distinction between stacking and desecration, which is not 
permitted, and we're also finding small print, something like 
20-year leases as opposed to deeds, and that's where we wonder 
the idea of what's the run-out times opposed to the eternity? 
What's the run-out time before cemeteries can do to bodies; 
that there is some fine print stuff that we never quite deal 
with in the grieving state, but it's way beyond--I want to 
make, again, distinction between funeral home stops at the 
gate, and the cemeteries have their own rules. They're licensed 
to the extent that you can--you have a right to bury in that 
place, and you can't bury some other place.
    Mr. Jackson of Illinois. Reverend Jackson, let me just say 
that I--having buried our own loved ones, I don't think any 
funeral--any plot that we've ever purchased as a family, that 
there's ever been an expectation that, after 20 years, somehow, 
it runs out; that this is a leasing arrangement. This is sacred 
space. Of course, you know that. Your mother and father are in 
a sacred space. But there was no expectation that, in 20 years, 
we need to go as a family and research, as Ms. Williams 
indicated, whether or not the families are there. And, so, I 
think, Mr. Chair----
    Reverend Jackson. You pick up these cemetery contracts, 
you're gonna find some stuff that's beyond ordinary 
imagination/expectation.
    Mr. Rush. Right. The Chair would like to inform all who are 
concerned that the second panel will delve more extensively 
into this particular area of the different types of contractual 
arrangements. There are leasing arrangements that exist that 
the consumer might not be aware of, the terms of the contracts 
that the consumer might not be aware of, but they sign them 
anyway because of the environment in which they negotiate. So, 
these are the kind of contracts, and this kind of behavior the 
second panel will undertake and try to inform the Subcommittee 
of.
    The Chair wants to thank the witnesses again for your 
testimony, but before--wait. I just--please forgive me. The 
Chair now--before we dismiss these witnesses, the Chair would 
like to recognize the gentleman from the 7th Congressional 
District, a man who has shown leadership throughout the years 
on this and other matters that faces the American people, 
Congressman Danny K. Davis, of the 7th Congressional District.
    Congressman Davis, we'll recognize you for two minutes, for 
the purposes of questioning the witnesses. And, if you have an 
opening statement, we will include your opening statement in 
the record by unanimous consent.
    Mr. Davis. Thank you very much, Mr. Chairman. And let me, 
first of all, commend you for calling this hearing, and also 
commend you for the tremendous leadership that you have 
provided on a number of issues, especially those related to 
Consumer Protection.
    I also want to thank our colleagues for coming from out of 
town, Representatives Butterfield and Cohen, to be with us this 
morning.
    The one question that I think I will ask, and it's 
difficult to find ways to provide additional oversight and ways 
to look for what could have happened that would have prevented 
this tragedy from occurring.
    Reverend Jackson, I'd like to ask you a question. I know 
that you have been accused of having the ability to look 
through muddy water and sometimes see dry land. The question 
that I wanted to ask you is, can you think of any additional 
levels of oversight, at either the local or state levels, that 
might have been able to prevent this tragedy from occurring and 
would not have necessarily cost the taxpayers a large sum of 
money?
    Reverend Jackson. Well, they have to keep books consistent 
with death certificate and funeral home, and that would be--
anything could happen, because, maybe that way, family members 
and funeral directors can serve as, kind of, a check and 
balance.
    Maybe, if it were a federal crime to desecrate bodies in 
this way, or manipulate remains, that would raise the--you 
become a terrorist with this kind of behavior. I would think 
that after you have heard both of these sets of witnesses today 
and see that Burr Oak just opens up a national wound--we've 
seen this desecration with the crematory in northwestern 
Georgia that was mentioned today, the Jewish cemetery in 
Florida, and I would like to think you would take--that you 
would run out to the best of your elected officials to try to 
figure out some remedy. But we do know that the embalmers are 
licensed, have to go through real training. The funeral 
directors have to go through hell and all kinds of training, 
but the cemeteries are largely just land purchasers who let 
burials take place on their land.
    Of course, in this case, you mentioned, Mr. Cohen, there's 
absentee landlords. They have not surfaced yet. They served a 
subpoena to all the funeral directors, ``Give us all your 
records. We'll go through them.'' An order that went back five 
years. So, the funeral directors have had to take the burden of 
hiring extra people, digging up records. I mean, the burden 
shifted back to the funeral directors, but the owners of the 
cemeteries, so far, have not yet surfaced.
    Mr. Davis. Thank you very much, Mr. Chairman. And I thank 
the Reverend Jackson for his answer.
    Mr. Rush. Again--thank you, Congressman Davis.
    Again, the Chair thanks the witnesses, and I want to 
reiterate that the record is open for 30 days. If you have 
additional commentary that you might want to submit, you have 
30 days in order to get that into the record.
    Thank you so very much, and God-speed to each and every one 
of you.
    The Chair now calls the second panel to the witness table.
    The Chair would now like to introduce the second panel. 
Beginning on my left, Mr. Chuck Harwood is the Deputy Director 
of the Bureau of Consumer Protection for the Federal Trade 
Commission. Seated next to Mr. Harwood is the Honorable Daniel 
W. Hynes, who is the Illinois State Comptroller and a leader on 
this particular issue. Next to Mr. Hynes is Mr. Joshua Slocum, 
who's an Executive Director of the Funeral Consumers Alliance. 
Seated next to Mr. Slocum is Mr. Harvey Lapin, who's the 
General Counsel of Illinois Cemetery and Funeral Home 
Association.
    And seated next to Mr. Lapin is the honorable Spencer Leak, 
Jr., who's the--of the Leak and Sons Funeral Home. He's one of 
the sons of the Leak and Sons Funeral Home.
    I certainly want to welcome each and every one of you here 
to witness before this Subcommittee, and we will begin with you 
providing five minutes, for opening statements. You're 
recognized now for five minutes, beginning with Mr. Harwood.

   STATEMENT OF CHARLES HARWOOD, DEPUTY DIRECTOR, BUREAU OF 
         CONSUMER PROTECTION, FEDERAL TRADE COMMISSION

    Mr. Harwood. Thank you, Mr. Chairman. My name is Charles 
Harwood, or Chuck Harwood. I'm, again, the Director in the 
Federal Trade Commission Bureau of Consumer Protection. I 
submitted a written statement to represent the views of the 
Commission. I bring my whole testimony today, and answer any 
questions. The views I will express will be my own.
    The Federal Trade Commission, first of all, expresses its 
deep condolences to the families affected by the heartbreaking 
events of the historic Burr Oak Cemetery. As Ms. Williams has 
made so very clear, the families and friends of those buried at 
Burr Oak pain that has dulled has been resharpened, depressed 
sorrows been reignited. The FTC understands that, and does, 
indeed, express serious and deepest condolences for the pain of 
these people.
    On behalf of the FTC, I want to thank Mr. Chairman for 
convening this hearing and inviting the FTC to testify. We want 
to work with the Subcommittee in looking for ways in which we 
can use our law enforcement authority, rulemaking authority, 
and experience and expertise to respond to this tragedy.
    Also, on behalf of the FTC, Mr. Chairman, I want to commend 
the thorough and rapid response of the law enforcement 
authorities to the disinterment and desecration at Burr Oak 
Cemetery. There's ongoing criminal investigation at the 
Illinois Attorney General's Office and the Illinois 
Comptroller's Office to file a lawsuit to enforce Illinois 
consumer protection law. The FTC is prepared to cooperate and 
assist with these agencies.
    Also, Mr. Chairman, to the extent additional relief is 
called for in connection with these law enforcement actions, 
the FTC is prepared to investigate and, if appropriate, bring 
additional actions.
    As the Subcommittee well knows, Congress has charged the 
FTC with protecting the American consumers from fraud, deceit, 
and other injurious practices. Since the 1980s, the FTC's 
Funeral Rule has been the center of our consumer protection law 
enforcement efforts in the so-called death care industry. The 
Funeral Rule is a cost disclosure rule. For example, when a 
consumer visits a funeral home, the Rule requires that the 
funeral director provide the consumer with a general price 
list, which shows the price of each funeral good and service 
offered.
    Funerals are among the most expensive purchases many 
consumers make. The Funeral Rule enables consumers to take time 
in extraordinary stress to make informed purchasing decisions, 
but the Funeral Rule probably does not, as it's currently 
written, apply to the awful events at Burr Oak Cemetery. 
However, I'm here to offer some other options, as we look 
forward to working with the Subcommittee on how these options 
can be utilized in the future.
    First, as I've already stated, the FTC is ready to 
investigate the activities at Burr Oak as possible unfair, 
accepted acts or practices under the FTC Act should that prove 
warranted in light of the Illinois criminal and civil 
enforcement actions.
    Second, the FTC could address such activities as we've 
heard about Burr Oak through our Rule. However, because the 
FTC's rulemaking procedures are cumbersome as they're currently 
written, despite the time-consuming effort, and, to be honest, 
there are also other problems with using that approach.
    Third, the FTC's often used workshops, hearings, and 
studies to promote better protection for consumers. The FTC may 
be able to use these same tools to explore problems and 
solutions to the terrible tragedy we heard about today, 
including learning more about what state and local authorities 
are doing with regard to problems such as this, and discussing 
whether there might be a role for federal government, a role 
for models, or other kinds of solutions.
    Finally, the important part of the FTC's consumer 
protection program is the education of consumers and 
businesses. With respect to the Funeral Rule, the FTC has 
published materials in English and Spanish to help consumers 
understand their rights and help businesses understand their 
legal obligations. Better education of consumers about 
cemeteries and burial options, and address questions such as 
those that we heard Reverend Jackson raise about looking at 
contracts and what they mean, there may well be a role here for 
additional consumer education, and the FTC's prepared to 
undertake a new consumer education initiative if that appears 
to be helpful.
    Mr. Chairman, the FTC welcomes the opportunity to work with 
the Subcommittee and its staff on these options. We want to do 
what we can to ensure others do not experience the profound 
grief the families with loved ones buried at Burr Oak Cemetery 
have been forced to endure. Thank you, sir.
    [The statement of Mr. Charles Harwood follows:]
    <GRAPHIC><TIF9>T4092A.010
    
    <GRAPHIC><TIF10>T4092A.011
    
    <GRAPHIC><TIF11>T4092A.012
    
    <GRAPHIC><TIF12>T4092A.013
    
    <GRAPHIC><TIF13>T4092A.014
    
    <GRAPHIC><TIF14>T4092A.015
    
    <GRAPHIC><TIF15>T4092A.016
    
    <GRAPHIC><TIF16>T4092A.017
    
    Mr. Rush. Thank you.
    The Chair now recognizes the Comptroller of the State of 
Illinois, the Honorable Daniel W. Hynes, for five minutes.
    Welcome and--Comptroller Hynes, you have--you're recognized 
for five minutes.

    STATEMENT OF HONORABLE DANIEL W. HYNES, ILLINOIS STATE 
             COMPTROLLER, OFFICE OF THE COMPTROLLER

    Mr. Hynes. Thank you, Mr. Chairman, members of the 
Subcommittee. I appreciate the invitation here today, and am 
very glad that the federal government and this Subcommittee, in 
particular, is taking a look at this issue, because we 
certainly have great concern about the lack of oversight and 
regulation of the cemetery industry. And I also want to express 
my deepest sympathy for the families and friends who have gone 
through this tragedy, who had to suffer the loss of a loved one 
for a second time.
    As I went to the cemetery and visited with family members, 
their grief was overwhelming. Their frustration, their anger, 
their disappointed--their confusion was absolutely clear, and 
they're looking for answers, and I think that they're going to 
be comforted by the fact that this Subcommittee is taking a 
look at this issue.
    The tragic events at Burr Oak Cemetery serve as a 
touchstone and a focal point for those of us in public office. 
It provides a perspective and an orientation that has truly 
reshaped the debate, at every level of government, on the 
regulation of the death care industry. Thanks to recent media 
reports, the public and policymakers are now acutely aware of 
the gaps in the current regulatory system.
    Let me begin, first, by describing that system and also 
some things you may already know. Currently, the federal 
government exercises very little regulatory authority and 
oversight of the death care industry. The FTC provides some 
consumer protections when dealing with funeral homes and door-
to-door sales, but, generally, regulation is left to the 
states.
    As members of the Committee explore this issue, you will 
quickly find that state regulations vary widely from state to 
state. Consumer disclosures, entrustment requirements, 
licensing, inspections, recordkeeping requirements, the nature 
of the real property interests involved, maintenance standards, 
public health standards, permits, exemptions for certain types 
of cemeteries are all varying widely state to state and they're 
handled different ways; sometimes through a statute, sometimes 
through common law, sometimes through local ordinance. This is 
a fractured and sometimes even contradictory system of rules.
    I do not hold myself out as an expert in comparative 
cemetery law; however, I can speak to my experience in Illinois 
in trying to address the very real concerns of consumers 
dealing with the death care industry.
    As Comptroller, my office has limited legal authority over 
cemeteries, specifically focusing on consumer funds accepted by 
the cemetery that are held in trust, with trust earnings to be 
used for the care of the cemetery. The office also licenses 
funeral homes and cemeteries that sell pre-need arrangements in 
advance of death. Under those licenses, the pre-need funds are 
held in trust until needed, to cover the funeral and cemetery 
costs at the time of death. The office requires annual 
financial reporting and conducts audits to ensure financial 
compliance. Local government, religious, and fraternal 
organization cemeteries register with the office, but are not 
licensed or audited by the office because state law 
specifically exempts them.
    Thus, in Illinois, the Office of the Comptroller has a 
limited role in overseeing entrustment at a limited number of 
cemeteries and funeral homes.
    The state Department of Financial and Professional 
Regulation issues licenses for funeral directors and embalmers. 
The state's Department of Health has certain regulations 
pursuant to the state Vital Records Act concerning permits, 
death certificates, and the like; however, there is no 
regulation of most at-need sales, there is no real regulation 
of cemetery maintenance, and there is, at best, minimal 
oversight of non-trust fund recordkeeping. In short, there is a 
regulatory vacuum in Illinois and, I suspect, many other 
states.
    A decade ago, when I was first elected Comptroller, I held 
hearings around the state about cemetery and funeral home 
issues. The most common complaint was inadequate and poor 
maintenance of cemeteries. Thus, when we proposed legislation 
reforms to address these concerns, we included a minimum 
maintenance standard upon cemeteries. Unfortunately, that 
provision did not make it through the legislative process, 
largely, I believe, because of the influence of special 
interests in the state Capitol. However, we were able to 
successfully expand some consumer protections within the 
limited areas of pre-need sales and care-funded entrustments.
    Earlier this month, spurred by the impetus of the tragedy 
at Burr Oak Cemetery, a broad group of people came together to 
propose comprehensive legislation to address the regulatory 
issues involved. Led by our office, we worked with RainbowPUSH, 
the Cook County State's Attorney, Sheriff, and Recorder of 
Deeds, individual legislators, staff, and others. 
Unfortunately, our legislation stalled in the Committee.
    Let me share the highlights of this legislation that we 
proposed:
    Number one, we would require all cemeteries and their staff 
who sell cemetery plots to be licensed. Small cemeteries with 
fewer than 25 annual burials would be exempted. The Illinois 
Department of Financial and Professional Regulation, which 
already licenses a wide range of professions, would issue 
licenses and rules. Licensees would be required to adhere to a 
code of conduct and undergo continuing education.
    Second, cemeteries would be required to provide reasonable 
maintenance based on enforceable standards detailed in both 
statute and agency rules.
    Next, cemeteries would be required to keep detailed records 
and maps, file a copy of those records with the county recorder 
of deeds, and provide the information to consumers.
    Funeral directors would need to provide specific 
information about burial locations and information that would 
be available on the death certificate on file at the county 
clerk's office.
    Our legislation would create a consumer bill of rights, 
including requiring cemeteries to provide consumers with a 
booklet detailing their rights under law.
    Also, our legislation would extend crime victims assistance 
eligibility to family members of those who are victims of the 
crimes charged at Burr Oak Cemetery pursuant to the Crime 
Victims Compensation Act.
    And, finally, the minimum threshold for the state's 
allowance for indigent burials would be increased and provide 
for a cost-of-living increase every fiscal year.
    The text of our legislation is contained in Senate 
Amendment 1 to Senate Bill 662, and is available on the 
Illinois General Assembly's Web site.
    I realize that criminals are oftentimes not deterred by the 
laws we pass, but I believe that adequate regulations and 
consumer protections can reduce the chances that we will ever 
have to deal with another tragedy on the scale of Burr Oak 
Cemetery.
    Thank you very much.
    [The statement of Honorable Daniel W. Hynes follows:]
    <GRAPHIC><TIF17>T4092A.018
    
    <GRAPHIC><TIF18>T4092A.019
    
    <GRAPHIC><TIF19>T4092A.020
    
    Mr. Rush. Chair thanks to the gentleman.
    The Chair now recognizes Mr. Slocum for five minutes, for 
an opening statement.
    Mr. Slocum. Good morning.
    Mr. Rush. Morning.
    Mr. Slocum. Is this on?
    Ms. Schakowsky. Yes.

    STATEMENT OF JOSHUA SLOCUM, EXECUTIVE DIRECTOR, FUNERAL 
                       CONSUMER ALLIANCE

    Mr. Slocum. Thank you very much. I very much appreciate the 
opportunity to speak to this panel today.
    Funeral Consumers Alliance, for those of you who don't 
know, is a national, non-profit federation of largely 
volunteer-run educational societies that show people how to 
shop around for funeral and cemetery purchases, tell them what 
their legal rights are, show them wise planning that fits their 
budget, and we act as a repository of consumer complaints and 
industry practices around the country.
    We receive probably 10,000 calls and e-mails a year, just 
in the small national headquarters office that I work in, from 
consumers all over the country, and I wish I could say that 
this was a surprise to me, what happened at Burr Oak, but it is 
not. And I hope that this will be one of the last times that I 
am ever invited on behalf of FCA to speak on these issues.
    We were involved in the 1970s and '80s in pushing for the 
original adoption of the Funeral Rule, which is a landmark 
consumer bill of rights the Federal Trade Commission's Mr. 
Harwood mentioned. For more than 15 years, we have been asking, 
both through the media, through our publications, through 
Congressional testimony, and testimony before the Federal Trade 
Commission, for the Rule to be expanded to cover cemeteries so 
that at least consumers had the minimum legal disclosures, the 
minimum right to printed prices and rules and regulations, and 
this has fallen on deaf ears, despite the Menorah Gardens 
scandal, the Jewish cemeteries in Florida, despite the Tri-
State Crematory disaster, which sparked Senator Dodd to propose 
a bill in 2002 and 2004, which we assisted in researching, 
which went to an unmarked grave, and this bill would have 
finally codified the Funeral Rule. No, I recognize disclosure 
rules by themselves are not going to prevent these tragedies, 
but there needs to be a culture of accountability in cemeteries 
that is woefully lacking.
    Funeral homes have to meet minimums, as many of the other 
witnesses have said. Cemeteries can get away with these sorts 
of things with impunity. And I want to give you some examples 
from other families around the country who don't get a chance 
to be heard by Congressional Committees or by anyone, really, 
because, as I was researching the cemetery regulatory agencies 
around the country, very quickly, for this hearing, I found an 
absolute hodgepodge. It's ridiculous. In some places, we have 
the insurance commissioner regulates cemeteries. In other 
places, the Vital Statistics Department ostensibly regulates 
cemeteries. In other places, there's a dedicated cemetery 
board. Some of them audit on site, most of them don't. Some of 
them audit the burial records against the sales, some of them 
don't. Some of them look to see whether the prepaid perpetual 
care funds are there, some of them don't.
    One thing is clear--I'm an expert in researching cemetery 
and funeral law--your average grieving family has no chance at 
all, in any state, of figuring out whether there's even an 
agency to file a complaint with. This is well, well past time 
for federal regulation. I have heard for many years, ``State's 
rights. This is a state's rights issue.'' This cannot be a 
state's rights issue anymore, particularly with so many 
cemeteries owned by multinational or national chains.
    So, let me tell you about a few things, please, that 
consumers have told us. Problems are far deeper--it's terrible 
to think of your loved ones being dug up. Nothing could be more 
shocking. But there are simmering scandals that go on that have 
to do with taking financial abuse of grieving people, 
particularly the elderly, the mismanagement and stealing of 
more than a billion dollars in consumers' prepaid funeral and 
burial money just in the past three years.
    So, the FTC Funeral Rule tells funeral homes they have to 
give consumers price lists, they have to give them truthful 
information, and they have to allow them to pick and choose 
goods and services on their own. Cemeteries don't have to do 
this, except in a minority of states. So we get situations like 
Mrs. B, a widow from Virginia, who called about four years ago 
and said she was shopping ahead of time for a cemetery plot in 
the metro DC area, and the Jewish form of burial in a plain, 
pine box without an outer concrete vault appealed to her. And, 
so, she went to a cemetery and said, ``I didn't want a lot of 
folderol, so I asked the cemetery if I could be buried in the 
plain, pine box that they used next-door at King David Memorial 
Gardens, instead of the polypropylene or the concrete grave 
liners.'' And the saleswoman at this national chain-owned 
cemetery, which also owns funeral homes, told her, ``The 
federal government won't let you be buried in a pine box. 
That's only for the Jews.''
    Not only is that a deliberate lie--the government does not 
tell you you can't be buried that way--but had that cemetery 
been covered under the Funeral Rule, this would have been a 
violation of the Funeral Rule the FTC could have at least 
noted.
    And just as important--if I can just finish up, please. 
Thank you.
    Mr. Rush. Sure.
    Mr. Slocum. There is a national financial scandal going on 
with prepaid funeral and burial money which must be addressed. 
We have all had our eyes on Wall Street, and so many regulators 
are now saying, ``We've got to take care of people on Main 
Street because of the financial shenanigans going on at Wall 
Street,'' and it's causing us to rethink the laissez faire 
attitude that we've taken for so long.
    What's going on in the--with prepaid funeral money--it's 
all over my desk. I have a stack this high of news stories from 
the past two years, and nobody, nationally, seems to be 
connecting the dots. We have a company called National 
Prearranged Services that sold burial and funeral services to 
consumers in at least 19 states, 200,000 families. They are now 
in receivership in the State of Texas basically for running a 
Ponzi scheme, and the Special Receiver found that they have 
almost a billion dollars in negative equity. That means a 
billion dollars that they need to pay out for these eventual 
funerals and burials, but they're not going to. Seventy million 
dollars in Michigan, $21 million in Mr. Cohen's State of 
Tennessee with Forest Hill Cemeteries, and on and on.
    Again, a couple of the other witnesses--and they're right--
have said that there is no law that can be written that is 
going to prevent criminal behavior in every instance, but we 
can start deterring it and we can start curtailing it. But, 
respectfully, I must disagree with Mr. Harwood and say a 
consumer education campaign from the FTC is laudable, but it is 
nowhere near enough. We have provided the Federal Trade 
Commission, both in hearings in 1999 and in personal 
communications, box after box after box of documented cemetery 
abuses and funeral abuses for more than ten years, and to have 
the FTC close the Funeral Rule review without extending it to 
cemeteries in 2008 was shocking to us.
    So, what we are asking, please, on behalf of every funeral 
consumer, every grieving family in America, please bring all 
death-related businesses under the Funeral Rule and codify the 
Rule to give it a Congressional mandate; two, create national 
minimum standards for recordkeeping and state regulation and 
inspection of cemeteries, to give the states at least a 
template to begin from; and, number three, please require 
responsible, complete deposit of all consumers' prepaid funeral 
and burial money uniformly across the board, and give consumers 
the right to the transfer of that money or the refund if life 
circumstances change.
    Thank you very much.
    [The statement of Mr. Joshua Slocum follows:]
    <GRAPHIC><TIF20>T4092A.021
    
    <GRAPHIC><TIF21>T4092A.022
    
    <GRAPHIC><TIF22>T4092A.023
    
    <GRAPHIC><TIF23>T4092A.024
    
    <GRAPHIC><TIF24>T4092A.025
    
    <GRAPHIC><TIF25>T4092A.026
    
    <GRAPHIC><TIF26>T4092A.027
    
    <GRAPHIC><TIF27>T4092A.028
    
    <GRAPHIC><TIF28>T4092A.029
    
    <GRAPHIC><TIF29>T4092A.030
    
    Mr. Rush. Thank you.
    Mr. Lapin, you're recognized for five minutes.

 STATEMENT OF HARVEY LAPIN, GENERAL COUNSEL, ILLINOIS CEMETERY 
                  AND FUNERAL HOME ASSOCIATION

    Mr. Lapin. Thank you, Mr. Chairman. Thank you for inviting 
me.
    I'm Harvey Lapin. I'm the General Counsel of the Illinois 
Cemetery and Funeral Home Association, and I'm testifying here 
on their behalf. As the Association, we strongly condemn the 
crimes that have allegedly been committed at Burr Oak Cemetery. 
What the involved employees apparently did violates everything 
our industry stands for. Their actions were not only horrible 
and appalling, they were criminal. ICFHA was established in 
1928, and we have over 300 members covering the whole spectrum 
in the different types of cemeteries in this country. We have 
religious cemetery members, municipal members, fraternal 
members, and small, family-owned cemeteries, small funeral 
homes, combination funeral homes, all the way across the board, 
and that is one of the problems that we have with regulating 
the industry. There is a broad spectrum of different types of 
cemeteries, and we can't paint them with the same brush. So 
that's one of the areas of concern.
    As far as Illinois is concerned, I was--we were shocked 
when it was indicated that there were no laws in Illinois that 
dealt with this problem, because that is absolutely not true. 
The Illinois Cemetery Protection Act clearly applies to this 
situation. And I must say, this is a criminal investigation, 
and we must be very careful not to do anything to cause a 
problem with that criminal investigation. However, the Cemetery 
Protection Act clearly provides any person that willfully 
destroys or damages the remains of a deceased human being or 
desecrates human remains will be guilty of a Class 3 felony.
    Two, any person that willfully removes any portion of the 
remains of a deceased human being from a cemetery is guilty of 
a Class 4 felony.
    Three, any person who defaces or vandalizes, injures, or 
removes a grave marker or memorial is guilty of a Class 4 up to 
Class 2 felony, depending on the number removed.
    This is the current law in Illinois, and I don't think 
there's any question as to its application. We increased the 
penalties in that law several years ago, and I think our 
legislature now wants to increase them again. We have 
absolutely no opposition to doing so. Each violation would be a 
separate violation under that law, so you can take the 
penalties, and they will be great against these people if they 
are convicted. In addition to that, there are other laws in 
Illinois that apply.
    The Comptroller's here today, and the Comptroller's Office 
has jurisdiction over cemetery laws and trust laws and other 
laws that apply to the cemeteries in the state that are 
covered, and directly told you that there are entities that are 
exempt from that law. But, basically, the private-operated 
cemeteries, including Burr Oak, are covered by that law. And 
those laws can take felony-count penalties for certain acts, 
which, after the dust has settled in this situation, it is 
probable that Burr Oak will be subject to some of these 
penalties.
    We have provided you with a resource memo that has a lot of 
information about the Illinois laws and also the position of 
the Association on these issues. In addition, to the specific 
cemetery laws that were violated, there are other laws of 
Illinois that apply. We have criminal laws here. These people 
allegedly engaged in theft of property, and they took the 
property of other people and used it for some other purpose. 
They engaged in theft by deception, all under the State's 
Attorney and Attorney General's Office, and they are 
investigating on that basis.
    In addition to that, they violated, in our opinion, the 
Unfair Deceptive Practice Law, which ties into the Federal 
Trade Commission Unfair and Deceptive Practices. There is a 
national standard, and each state has laws that interrelate 
with that national standard. The Attorney General's Office of 
the State of Illinois also administers that law, and if there's 
a specific violation, the Cemetery Care Act and Cemetery's Pre-
Need Sales Act, the Attorney General's Office can incorporate 
those specific violations under their law.
    So, it is our position that there is extensive law in 
Illinois that was violated here. The Association stands as a 
resource to this panel and to any other panel, and we are here 
to assist, because of this terrible problem, in helping the 
families. And I, too, am very sad when I listened to the 
testimony from a family member who had this problem.
    The Association, we have a consumer complaint vehicle, and 
you can contact us. ICFHA.org has the form for downloading. We 
handle many complaints on a yearly basis. The Comptroller's 
Office has a 800 number for complaints. Many times, they refer 
complaints over to the Association to handle, because we're 
able to deal with it better than they can, and deal with the 
peer pressure. We've been very successful. There also is a 
national complaint procedure that was established many, many 
years ago.
    [The statement of Mr. Harvey Lapin follows:]
    <GRAPHIC><TIF30>T4092A.031
    
    <GRAPHIC><TIF31>T4092A.032
    
    <GRAPHIC><TIF32>T4092A.033
    
    <GRAPHIC><TIF33>T4092A.034
    
    <GRAPHIC><TIF34>T4092A.035
    
    <GRAPHIC><TIF35>T4092A.036
    
    <GRAPHIC><TIF36>T4092A.037
    
    <GRAPHIC><TIF37>T4092A.038
    
    <GRAPHIC><TIF38>T4092A.039
    
    <GRAPHIC><TIF39>T4092A.040
    
    <GRAPHIC><TIF40>T4092A.041
    
    <GRAPHIC><TIF41>T4092A.042
    
    <GRAPHIC><TIF42>T4092A.043
    
    <GRAPHIC><TIF43>T4092A.044
    
    <GRAPHIC><TIF44>T4092A.045
    
    <GRAPHIC><TIF45>T4092A.046
    
    Mr. Rush. Thank you, Mr. Lapin.
    The Chair now recognizes Mr. Leak for five minutes, for an 
opening statement.

   STATEMENT OF SPENCER LEAK, JR., LEAK AND SONS FUNERAL HOME

    Mr. Leak. Thank you, Mr. Chairman.
    First of all, my heart goes out to all of the families 
affected by the Burr Oak situation. Again, to Congressman Rush, 
to your distinguished panel, Mr. Cohen from Tennessee, I'm a 
cousin to Harold Ford, Jr. I know you know his family very 
well.
    As an African American funeral director, I'm appalled at 
the crimes that have taken place at the historical Burr Oak 
Cemetery. In addition to the number of people that meant so 
much to so many, such as Emmett Till, Dinah Washington, and 
members of the Negro League Baseball Team, my grandparents and 
great-grandparents are buried there, as well.
    How this happened, we hope to find out soon, as the 
investigation continues. Why this happened, we may never know. 
But, more importantly, could this have been prevented? My 
answer is yes.
    As a licensed funeral director and embalmer, I have gone to 
and graduated from Mortuary Science School, passed the national 
board examination, participated in a summer's internship, as 
well as a year of apprenticeship. I have now been practicing 
for almost 20 years; however, those who work at cemeteries in 
Illinois and maybe even across the country are required to have 
no formal educational training in the funeral service field at 
all.
    When someone makes their transition, a licensed funeral 
director has to remove them from their place of death. If my 
firm does otherwise, I can be fined and disciplined. When one 
sits down to make funeral arrangements, they must be licensed, 
or I can be fined and disciplined. If I don't give the family 
an itemized price list, as required by the FTC, I can be fined 
and disciplined. When a deceased is to be embalmed, one must be 
embalmed by a licensed embalmer, or my firm can be fined and 
disciplined. Finally, when a loved one is driven to the 
cemetery, the deceased must be taken by a licensed funeral 
director. If this does not happen, the funeral home can be 
fined and disciplined.
    So, why does the cemetery, then, have no regulated 
responsibility? Funeral homes across the country are highly 
regulated. Cemeteries should be, as well. Had Burr Oak been 
under some type of regulatory responsibility, then I feel this 
tragedy would never have taken place.
    Thank you.
    [The statement of Mr. Spencer Leak, Jr. follows:]
    <GRAPHIC><TIF46>T4092A.047
    
    Mr. Rush. We thank all the witnesses for their opening 
statement. The Chair recognizes himself for two minutes, for 
the purposes of questioning the witnesses.
    Mr. Slocum, your testimony provides a vivid description of 
many abuses that have taken place at cemeteries across the 
country, and you make it crystal clear that the incident at 
Burr Oak, while particularly horrendous, may not be an isolated 
event. And if we are to start reforming our laws to curb some 
of the abuses and injuries we've witnessed at Burr Oak and 
elsewhere, where do you think we should start?
    And let me ask you if you would direct your remarks, 
beginning with the issue that was raised by the previous panel, 
in that there are different contractual arrangements for 
different lengths of time. Most of the consumers think and 
operate on the--either their illusion or this is the fact--
that, when they purchase a plot, then that plot is theirs for--
--
    Mr. Slocum. Correct.
    Mr. Rush [continuing]. For eternity. Can you address that 
concern, with the different types of contracts that are now in 
practice by cemetery associations?
    Mr. Slocum. Yes, sir. Before I was informed by a reporter 
that there were these term contracts, or it was--there were 
alleged to be these term contracts, where the grave would be, 
in a sense, rented for a period of time, I had not heard of 
that in the United States. That practice is not uncommon in 
many European countries--the Netherlands, Greece--but this is 
known. It's part of the culture. People can decide whether or 
not they wish to rent a grave for a certain amount of time or 
have it in perpetuity. I had not heard that here, so that was a 
surprise to me. I can tell you that I have never--and I've 
spoken to thousands and thousands of consumer families--I have 
never talked to one who would make anything other than the 
assumption that that grave was a permanent resting place. No 
one.
    Mr. Chairman, you asked me where would I start in terms of 
regulation. I think reasonable people can disagree about the 
details, or hash them out, but I think some broad, general 
guidelines that would be reasonable would be: Number one, 
starting at the bottom and bringing cemeteries up to the same 
minimal standards of disclosure and written disclosures to 
consumers, written disclosures about prices, about their rights 
to pick and choose goods and services, and what those mean, 
like Mr. Leak said. He's absolutely right; funeral directors 
have to abide by these things, and, yet, regulatorily, we look 
at cemeteries as if they are something else entirely.
    The consumer sees the death-care transaction as all of a 
piece; the cemetery, the funeral home, the crematory, the 
third-party casket seller.
    Secondly, state regulation of funeral homes is better than 
that of cemeteries, but it is not so great, either. One of the 
major problems for regulation of death care is the absolute 
dominance by industry insiders. States where there are funeral 
or cemetery boards that adjudicate consumer complaints and seg 
rules, they are stacked to the gills with industry. North 
Carolina, for example, Mr. Butterfield, I believe that there 
are eight or nine seats on the funeral board in North Carolina, 
and, by statute, two of the largest funeral trade associations, 
the lobbying groups, can appoint a total, I believe, of six of 
those, and the governor has to choose from those appointees.
    This sort of insider dealing is not serving families, and 
that's not the only--I don't mean to single out North Carolina, 
and, certainly, you, sir, are not personally responsible for 
that.
    Mr. Butterfield. I appreciate that.
    Mr. Slocum. But we see this all over the place. In fact, in 
Georgia, where the Tri-State Crematory disaster happened in 
2002, Georgia's response to this--to a consumer advocate's 
perspective was nonsensical. What they said was, ``OK. We'll 
say that crematories now have to deal only with funeral homes, 
and we will achieve oversight, because funeral directors 
themselves are regulated.'' There's nothing to say that 
crematories who serve the public or cemeteries that serve the 
public can't do so and be licensed and regulated on their own 
terms.
    And, in fact, political dealing has stopped cemetery 
regulation from really getting to the place where consumers can 
use it. Much of the oversight of cemeteries in Georgia used to 
happen in the Secretary of State's Office, but political 
maneuvering put a bill through in 2006 which took a lot of that 
away from the Secretary of State and gave the regulation of 
these cemeteries to a newly created cemetery board dominated by 
cemetery owners. And, in fact, some of the things that funeral 
homes could be fined by the FTC for doing--bundling goods, 
saying, ``I won't give you a funeral service unless you buy my 
casket in-house--states like Georgia say it's absolutely fine 
for cemeteries; they can charge consumers $125 penalty for 
buying a less expensive monument to save money on a loved ones' 
funeral from outside the cemetery.
    So we need some national standards, we need at least 
disclosures, and we need some guidelines for the states that 
would give them minimums on what to look for in recordkeeping 
and auditing, both financially and in terms of the location of 
graves. And it would be awfully nice if the federal government 
would address the problem of regulatory capture so that 
consumers had someplace to go to complain that wasn't a panel 
of business owners representing the industry they have a 
complaint against.
    Thank you.
    Mr. Rush. The Chair now recognizes the gentle lady from 
Illinois, Ms. Schakowsky, for two minutes of questioning.
    Ms. Schakowsky. Mr. Lapin, is your association that you--is 
the association you represent the same as the one referred to 
in Mr. Slocum's testimony, the Illinois Funeral Directors 
Association?
    Mr. Lapin. No.
    Ms. Schakowsky. No. That's a different----
    Mr. Lapin. This is a separate association, and we represent 
a different group of individuals, and we have nothing to do 
with the IFDA problem.
    Ms. Schakowsky. OK. And are you suggesting, though, that 
there is no more need for regulation because the industry is 
sufficiently regulated? The cemeteries are sufficiently 
regulated?
    Mr. Lapin. I am not suggesting that. I am indicating that 
there is a problem of regulation. Our Association represents a 
very broad spectrum. The Comptroller indicated that a proposed 
law was introduced into the senate of Illinois, and it got held 
up. It was not held up by our association; it was held up by a 
very large religious cemetery in the City of Chicago, because 
they had not had an opportunity to review it.
    So, this is part of the problem that you're going to be 
dealing with, is you have a lot of varied interest. And I was 
at a hearing for the Federal Trade Commission where the Arch 
Dioceses cemeteries came in and basically said, ``You have no 
right to regulate us.'' And that was their position, and it is 
basically a separation of church and state that they're taking 
that position. So this is the problem.
    We actually worked on the bill that the Comptroller's 
Office put in.
    Ms. Schakowsky. OK.
    Mr. Lapin. We got it late one night, and we went over it, 
we made some technical changes, and we were ready and willing 
to support it the next day in the senate.
    Ms. Schakowsky. Thank you.
    Mr. Harwood, first of all, let me say that, you know, you 
began by congratulating the prompt response, and I would say, 
in this particular instance, I would agree with that. But what 
we're hearing is that this has been a lingering problem, and 
that it needs to be addressed.
    You had mentioned, as one of the possible ways, rule-
making, but you stated that it is a very cumbersome process, 
and we keep running into that; this Committee--this 
Subcommittee does. And I wondered if you would comment on the 
burdens of the Magnuson-Moss Rule, in terms of, I mean, 
consumers might think, ``Well, why doesn't the FTC just deal 
with it?'' Can you describe the difficulty?
    Mr. Harwood. Thank you, Representative Schakowsky.
    The rule-making process the FTC currently operates under 
requires us to go through multiple steps before we can write a 
new rule or amend a rule. Last time we amended the Funeral 
Rule, for instance, it took us about four years to do it. 
Presumably, we are talking about something along that line 
again if we attempted to do it again. It's simply not what most 
people think of as a quick process; it requires hearings, 
testimony, input from people. It also requires us to conclude 
that there is a widespread problem, and it's a prevalent 
problem facing us.
    Ms. Schakowsky. Thank you.
    Mr. Leak, we had a conversation before the hearing, where 
you were saying that, while you have no control, at all, over 
any cemetery, that you are now being swamped by calls of 
recordkeeping that's not within your hands. So, would you 
recommend that--how--what is your answer to that problem that 
you face?
    Mr. Leak. Thank you. When Reverend Jackson was here 
earlier, he mentioned about death certificates having the plot 
numbers and grave numbers on them. That was my idea that I gave 
to him and to the Board--to the panel that the Governor has set 
up.
    In Illinois, the death certificates have now gone 
electronic. The doctor has to go online and take care of 
certain items. We, as the funeral home, have to go online and 
file the death certificate. If, maybe within two weeks or so 
after the burial of a loved one, the cemetery would be required 
by law to go online and amend that death certificate with the 
plot number, with the grave number, with the section number on 
the death certificate, then, had this been happening already, 
this problem wouldn't have come around.
    Ms. Schakowsky. What do you think, Mr. Slocum? Or, is there 
another way to handle the issue of information and disclosure 
of where the plot is.
    Mr. Slocum. Well, I'd have to think about it. I know that, 
in many states, the death certificates have required--there's 
a--I don't know what--you know Illinois' better. It says 
``Place of final disposition.''
    Mr. Leak. Only the cemetery----
    Mr. Slocum. It should--it says, ``Only cemetery.''
    Mr. Leak. Right.
    Mr. Slocum. I would wonder, technically, how feasible that 
would be, because what I've seen is----
    Ms. Schakowsky. Well, let me ask you this then: How would 
one assure that people could find out that information?
    Mr. Slocum. Well, I think the recordkeeping needs to start 
with the cemetery, and it needs to go with the state, as well. 
I think there need to be requirements that are verified by 
random audits and inspections by the state that the property 
has been surveyed, the grids are proper, the numbering system 
is consistent, that the number that is--perhaps, a number could 
be assigned to a death certificate, or it could be, in some 
way, correlated so that when somebody has a bill of sale for a 
grave that says, ``Grandma is in E-1234,'' that there is a 
record back in the cemetery office, possibly, that is also kept 
with the state regulatory office, where that can at least be 
cross-checked.
    Ms. Schakowsky. So, in any case, you feel that the state or 
some regulatory agency should also have that number, so that 
we're not just relying on the----
    Mr. Slocum. Oh, absolutely.
    Ms. Schakowsky [continuing]. Cemetery. OK.
    Mr. Slocum. The recordkeeping in cemeteries, even those 
with good intentions, is in absolute shambles. We're talking 
about paper filing cards, you know, from years and years ago 
that people may not even know exist in some cases.
    Ms. Schakowsky. I read, in some of the materials provided, 
that Burr Oak had nothing, at all--zero--for the year 2005, for 
example.
    Mr. Hynes, so what's the prognosis on legislation in 
Illinois?
    Mr. Hynes. Well, Representative, if I may just add to the 
previous comments about recordkeeping, our legislation would 
have many layers of disclosure required; the cemetery would be 
required to keep accurate books and records of burial 
locations. They would be required to give a copy of that to the 
consumer. The funeral director would be required to put the 
exact location of the burial plot on the death certificate. It 
would be filed with the county clerk's office. And then, 
ultimately, the burial plot would be also filed with the 
recorder of deed's office.
    So there would be, you know, multiple levels of public 
recordkeeping, which I think is important.
    Ms. Schakowsky. Are you finding the opposition that--of the 
kind that Mr. Slocum described?
    Mr. Hynes. Yes. I mean, throughout my ten years in office, 
we have met with great resistance on many of our reform 
proposals by the industry. And I also would probably add that 
there--part of it is the fact there's just--you know, they're 
strong institutions, very locally based, where every 
legislative district has many cemeteries, many funeral homes, 
and the owners of those are, you know, very well connected in a 
lot of ways.
    And then, there's also a significant representation in the 
general assembly itself of people in the industry, and they're 
very widely working behind the scenes in resisting our 
legislation.
    Ms. Schakowsky. Just to know, the media might be interested 
in a picture of some of the files that were taken at Burr Oak, 
which are all moldy--we can show them to you after--that are 
all moldy and clearly unusable, really.
    Thank you all. Mr. Lapin.
    Mr. Lapin. I'd like to clarify the record here, because 
you're showing a file of a cemetery that is not necessarily the 
norm. Many of the private-operated cemeteries have computer 
records, they have backups in another location of their 
computer records, and they have all the information that can be 
provided.
    Where the problem, as I'm indicating, is there are 
different types, and you have small, rural cemeteries that 
really have volunteer people on their staff or don't even have 
a staff, and if we propose a requirement on these small, rural 
cemeteries, many of them will now go to the municipalities and 
say, ``Here are the keys. We can't handle this anymore.'' So, 
that is the problem. The modern, for-profit cemeteries are 
maintaining these records.
    I'd also like to say something; in Illinois, the burial 
right is an easement. The Supreme Court of Illinois determined, 
in 1919 that it is an easement in real estate; it is not a fee 
title to the property. The reason it isn't is that the cemetery 
has to come in and take care of the property per whatever 
contract it enters into with the consumers for the care, and if 
it was a fee simple, they'd have to enter into a separate 
agreement with each consumer. They have the overall 
responsibility for the--taking care of the cemetery to the 
extent that they agree to do it.
    Mr. Rush. The Chair thanks you.
    Ms. Schakowsky. My time has expired.
    Mr. Rush. Your time has expired.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Butterfield, for two minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman.
    Some of my friends who are funeral directors and morticians 
are telling me that cemeteries are getting into the funeral 
business; that, as a condition of the sale of a plot of land, 
that they're requiring consumers to purchase their products, 
meaning that they're required to purchase their headstones and 
the markers directly from the cemetery. And even some are 
requiring that the caskets be purchased from the cemetery. Tell 
me about that, Mr. Leak, if you're aware of it.
    Mr. Leak. Yes, that is happening here in Illinois and 
across the country.
    Mr. Butterfield. Tell me quickly. We only have a two-minute 
lead, you know.
    Mr. Leak. We----
    Mr. Butterfield. Yes.
    Mr. Leak. We find, every day, that, when a family comes to 
us and we begin to hand them the price list for the caskets and 
other items, that they tell us they've already purchased the 
casket. It will be here on such-and-such a day. The headstone 
is done. The gravist had already been paid for. The only thing 
that they want from us is our professional service.
    Mr. Butterfield. But are cemeteries selling these products.
    Mr. Leak. Cemeteries, yes, are selling caskets here in 
Illinois. I don't know about across the country, but----
    Mr. Butterfield. Cemeteries that are not morticians, that 
are not licensed as morticians.
    Mr. Leak. That is correct, but I understand these 
cemetery--the owners also own funeral homes, as well.
    Mr. Butterfield. I see. Mr. Slocum, you want to illuminate 
on that.
    Mr. Slocum. Yes. I think the problem here is tying and 
bundling. First of all, no one should be alarmed that somebody 
other than a mortician is selling a casket. You don't need a 
license to sell--basically, to sell a casket.
    Mr. Butterfield. Should you have a license to sell a 
casket?
    Mr. Slocum. Pardon? A license? No, sir. I don't believe you 
should have a license to sell a casket. I think, if you're 
going to be a seller of funeral goods and services, that you 
need to be subject to the same disclosure rules that the FTC 
rule already has for morticians. But, no.
    Mr. Butterfield. Let me get a rebuttal from Mr. Leak.
    Mr. Leak. Well, I disagree. I'm thinking that especially 
outside casket companies should--well, there should be a 
licensed funeral director that works for the casket company for 
this one reason--just an example--a family orders a casket from 
a casket company before coming to us. The casket is sent to the 
funeral home. The person will not fit inside of the casket. Had 
there been a licensed funeral director at the outside casket 
company, that licensed funeral director would have counseled 
the family directly at letting them know or asking the 
question, ``Do you''----
    Mr. Butterfield. It seems----
    Mr. Leak. ``Do you think''----
    Mr. Butterfield. It seems----
    Mr. Leak [continuing]. ``Your loved one will fit in this 
casket?''
    Mr. Butterfield [continuing]. When you purchase a casket, 
that's a very sensitive and delicate time in the life of a 
family, and you need a professional----
    Mr. Leak. Yes.
    Mr. Butterfield [continuing]. Someone who's taken an oath, 
who understands what it's all about.
    Let me turn your attention--and I only have one minute 
left--to the terms of the contract, when a consumer purchases a 
plot of land. Are there price disclosures? Does the cemetery 
say, ``This is Section B, and the plots in this section are 
$1200?'' Is there a price disclosure, Mr. Leak?
    Mr. Leak. See, that's another problem here in Illinois. Had 
families been required to actually go out to the cemetery, talk 
to the cemetery personnel about what they're purchasing, Burr 
Oak wouldn't have taken place, as well.
    Families come to us and they expect us, the funeral home--
funeral director, to order the cas--or, I'm sorry, order the 
grave over the phone. Now, had the family been required to go 
out to the cemetery, show them the actual grave location that 
they're going to purchase, had been given an itemized price 
list of how much the opening and closing is, how much the 
concrete liner is, if they were purchasing a so-called select 
single, what that's all about--we, as funeral homes, are now 
answering, as we are today, cemetery questions.
    Mr. Butterfield. But you have to disclose your prices.
    Mr. Leak. Yes, sir.
    Mr. Butterfield. Cemeteries do not have to disclose their 
prices.
    Mr. Leak. No, sir.
    Mr. Butterfield. All right. That's a problem. All right.
    All right. Are your clients given deeds to the property 
here in Chicago?
    Mr. Leak. If they purchase a deeded grave at a certain 
cemetery, they're given a deed.
    Mr. Butterfield. And what is expressed in that deed, and 
what is implied in that deed? Is it perpetual care.
    Mr. Leak. Well, from what I understand, in some cemeteries, 
you have sections that have perpetual care. In those same 
cemeteries, you may have a section that doesn't have perpetual 
care.
    Mr. Butterfield. Is that included in the contract?
    Mr. Leak. That, I don't know, because I don't see the 
contracts.
    Mr. Butterfield. All right, Mr. Lapin. You're responding. 
Is that in the contract.
    Mr. Lapin. Yes. It's required by the Cemetery Care Act 
that, if you're providing care, you have to give the consumer a 
certificate indicative of the care that you're providing on 
that space. If you're not providing care, then there would be 
no requirement. Most cemeteries would indicate that these 
spaces are being sold without care; however, this would be a 
section of the cemetery. You can't say one space and say, 
``That one's got care. This one doesn't.''
    Mr. Butterfield. Finally, Mr. Lapin, are any of the 
cemeteries, that you're aware of, requiring the consumer to use 
their products, especially headstones?
    Mr. Lapin. That would be an illegal tie-in under the State 
of Illinois Antitrust laws and the federal antitrust laws, and 
the Funeral Rule prohibits tie-ins, also, so----
    Mr. Butterfield. Without penalty to the consumer.
    Mr. Lapin. No, you cannot tie in products and services, and 
that is why we have some independent sellers. And I agree with 
Mr. Slocum; you may not be aware, but Castro is a seller of 
caskets----
    Mr. Butterfield. Yes.
    Mr. Lapin [continuing]. In the states that it legally can. 
So, yes.
    Mr. Butterfield. I think my time is in the red. Thank you.
    I yield back.
    Mr. Rush. The Chair thanks the gentleman.
    The gentleman from the 7th Congressional District, 
Congressman Davis, five minutes--two minutes, rather.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Let me, first of all, commend you, Mr. Leak. I had the 
occasion yesterday, as a matter of fact, to visit the 79th 
Street and Congress Road Chapel of Leak and Sons, and I saw 
this long line of records that were out in the open so that 
individuals who wanted to try and see if they could find them, 
could come in, have access to them without any fanfare or 
difficulty, and I was very pleased to see that, and I commend 
your family for doing that.
    The one question that I have is to you, Comptroller Hynes, 
since you deal with distributing money. I must confess that I 
did some research relative to federal statutes, and it seems to 
me that--and I also went to the Justice Department, as well as 
the Congressional Research Service, and kind of looked into the 
issue. And it seems like they both imply that it's pretty 
difficult to get additional federal regulations. I mean, they 
both sort of implied that.
    They implied, also, that there are also some federal 
activities that already exists if one carries it through to its 
conclusion, you know, with the U.S. Attorney. And all of this 
becomes kind of complex, in a sense. If we talk about 
additional regulations, are we going to end up talking about 
additional costs that the consumer ends up having to pay, or 
does it become so cost effective in relationship to government? 
In, you know, practically every state that I know, and every 
county that I know, every local government that I know is 
crying about its budget and whether or not it can pay for 
anything beyond what it's currently paying for.
    So, how would you see that as--you know, in terms of the 
impact on the consumer?
    Mr. Hynes. Well, I think that the proposals we put forward 
at the state level could be implemented with minimal cost 
additions, both in terms of, you know, costs incurred by state 
regulatory authorities, as well as, I believe, cemeteries 
themselves. So, for example, in terms of the burial record and 
maintaining good public records, we spoke with the Recorder of 
Deeds office, and they felt that it would be pretty simple to 
expand their systems to incorporate the recording of cemetery 
plots and individual burial plots, as well. There may be some 
marginal costs in terms of implementing that, but they felt 
pretty comfortably they could do it.
    The Department of Professional Regulation would probably 
see some costs in terms of having to take over or sort of 
regulating the cemetery industry, but, you know, I'm confident 
that they would be able to do that within their existing 
budget.
    The cemeteries themselves will always say that they're 
going to be--this is going to drive up costs. When we proposed, 
years ago, a maintenance standard for cemeteries, where, you 
know, people could be--could expect the lawn be mowed and there 
to be no flooding and the roads be paved, we were told by 
cemeteries that this would just drive costs through the roof, 
and I just don't think that makes any sense. I mean, I think 
that there's just some expectation already on the consumer's 
part that these things would be done.
    And we also exempt--you know, Mr. Lapin mentioned about 
these small, community, ma-and-pa cemeteries. We exempted our 
legislation to any cemetery that has 25 or fewer burials per 
year so that they wouldn't be overwhelmed with these types of 
costs.
    So, I think the cost would be very minimal.
    Mr. Davis. Thank you very much, Mr. Chairman. This has been 
very informative. I certainly, again, want to thank you for 
holding this hearing.
    Mr. Rush. OK. The Chair would like to inform the members 
that we--and the witnesses, that we will have one additional 
question per each member. So, any additional--we're approx---we 
are gonna adjourn at 12:15, so we're ahead of schedule. So we 
got one more additional question, and the Chair recognizes 
himself for one more question.
    In this area of separation within the cemetery industry 
between for-profit cemeteries and not-for-profit cemeteries, 
how significant is that problem, in terms of additional federal 
regulation, and how would you suggest that we overcome that 
particular problem?
    Mr. Harwood. Mr. Chairman.
    Mr. Rush. Mr. Harwood.
    Mr. Harwood [continuing]. With respect to the--yes. Thank 
you.
    Mr. Rush. Go ahead.
    Mr. Harwood. The--under the FTC Act, there's a provision 
that precludes us from regulating not-for-profit entities; 
Section four of the FTC Act. We looked at this issue in 
connection with expanding the Funeral Rule to cemeteries and 
found that a substantial number of cemeteries are, in fact, 
not-for-profit entities.
    Thus, for us to extend the Funeral Rule, it would be 
difficult to reach those under that--as, currently, no law for 
them exists, it would be difficult to reach those.
    As to how you get around that problem, you know, ideally, 
the easiest answer I can see is simply to change the law, but 
there may be other solutions.
    Mr. Rush. OK. Comptroller Hynes, do you see that, and how 
would you advise us to move beyond the separation between not-
for-profit and for-profit.
    Mr. Hynes. Well, I think that, certainly, there are 
historic obstacles or just presumptions that carve out 
exemptions for religious and fraternal cemeteries. But I think 
it's something that has to be contemplated going forward. You 
know, we try to start with a broad reach and work from there in 
the legislative process. You know, you will find, you know, 
that there are concerns raised by religious entities, and then, 
even in the case of small, family cemeteries I mentioned, we 
had to carve out the exemption because there are some very 
small cemeteries that just couldn't keep up with these types of 
costs.
    So I would say that, you know, it's just something that we 
have to keep in mind, both at the state and federal level.
    Mr. Rush. Do any other witnesses want to chime in on that.
    OK. The Chair recognizes the gentle lady from Illinois for 
one minute. One additional question, though.
    Ms. Schakowsky. Yes. I just, actually, wanted to know, in 
the audience, are there other family members who had people at 
Burr Oak?
    I just wondered. Looks like we have people here. Thank you. 
I overused my time, I think, before, so I will yield back. 
Thank you.
    Mr. Rush. All right. Mr. Butterfield.
    Mr. Butterfield. Are there any other funeral directors in 
the audience.
    All right. Thank you.
    Mr. Leak, I'm intrigued with your suggestion that somehow 
the grave location can very easily be placed on the death 
certificate.
    Mr. Leak. Yes.
    Mr. Butterfield. Would that present any unusual problem or 
challenge for funeral homes to include that data, if it's 
provided on the form?
    Mr. Leak. Not at all. With the new system, the way it is 
now, the doctors have a password to go into the Internet and 
file their information. We then have a password to go into the 
Internet and file the death certificate. The cemeteries could 
then have a password to go in and amend the final death 
certificate that we have already----
    Mr. Butterfield. I think it's a wonderful idea. I'm going 
to encourage the legislature in my state to take up the idea. 
In fact, I just sent an e-mail to my state legislator, who 
happens to be my ex-wife, suggesting that she might want to 
consider offering that as a bill in the North Carolina House.
    Mr. Leak. You can make it the Spencer Leak, Jr. Funeral 
Rule.
    Mr. Butterfield. All right. Thanks to all of you.
    Mr. Rush. Yes. The Chair thanks all the witnesses. You have 
greatly made an enormous contribution to the members of this 
Subcommittee. Again, I want to assure you that we will be 
proceeding under the permits, and there will be a federal 
standard, a federal legislature that will be introduced into 
the Congress in the near future, and we expect to pass it into 
law, we expect to see the President sign it. It will be 
something like the Bereaved Consumer Bill of Rights for the 
nation's bereaved citizens.
    So, thank you so much, and we appreciate your testimony. 
Again, I want to tell the Committee, those who come from near 
and from afar, the Chair really appreciates your involvement, 
your time, and thank you again, and safe travels back to our 
nation's capital.
    The Committee stands adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    <GRAPHIC><TIF47>T4092A.048
    
    <GRAPHIC><TIF48>T4092A.049
    
    <GRAPHIC><TIF49>T4092A.050
    
    <GRAPHIC><TIF50>T4092A.051
    
    <GRAPHIC><TIF51>T4092A.052
    
    <GRAPHIC><TIF52>T4092A.053
    
    <GRAPHIC><TIF53>T4092A.054
    
    <GRAPHIC><TIF54>T4092A.055
    
    <GRAPHIC><TIF55>T4092A.056
    
    <GRAPHIC><TIF56>T4092A.057
    
    <GRAPHIC><TIF57>T4092A.058
    
    <GRAPHIC><TIF58>T4092A.059
    
    <GRAPHIC><TIF59>T4092A.060
    
    <GRAPHIC><TIF60>T4092A.061
    
    <GRAPHIC><TIF61>T4092A.062
    
    <GRAPHIC><TIF62>T4092A.063
    
    <GRAPHIC><TIF63>T4092A.064
    
    <GRAPHIC><TIF64>T4092A.065
    
    <GRAPHIC><TIF65>T4092A.066
    
    <GRAPHIC><TIF66>T4092A.067
    
    <GRAPHIC><TIF67>T4092A.068
    
    <GRAPHIC><TIF68>T4092A.069
    
    <GRAPHIC><TIF69>T4092A.070
    
    <GRAPHIC><TIF70>T4092A.071
    
    <GRAPHIC><TIF71>T4092A.072
    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
